No. 21In the

Supreme Court of the United States
FLOYD CALHOUN DENT, III,
Petitioner,
v.
UNITED STATES, et al.,
Respondents.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Fourth Circuit

PETITION FOR A WRIT OF CERTIORARI
M. Dawes Cooke
Christopher M. Kovach
Barnwell Whaley Patterson
& Helms, LLC
211 King Street, Suite 300
Post Office Drawer H
Charleston, SC 29402
(843) 577-7700
Joseph P. Griffith, Jr.
Joe Griffith Law Firm, LLC
946 Johnnie Dodds Boulevard
Mt. Pleasant, SC 29464
(843) 225-5563

Kirsten E. Small
Counsel of Record
William W. Wilkins
Nexsen Pruet
104 South Main Street,
Suite 900
Greenville, SC 29601
(864) 370-2211
ksmall@nexsenpruet.com

Counsel for Petitioner
307375

A
(800) 274-3321 • (800) 359-6859

i
QUESTION PRESENTED
The Anti-Kickback Statute, 42 U.S.C. § 1320a-7b(b)
(“AKS”), makes it a felony to “knowingly and willfully”
offer, solicit, pay, or receive “any remuneration (including
any kickback, bribe, or rebate)” in exchange for referring
an individual for, or arranging or recommending, any item
or service paid for by a federal healthcare program. The
AKS is intended to promote cost savings and “protect
patients from doctors whose medical judgments might
be clouded by improper financial considerations.” United
States v. Patel, 778 F.3d 607, 612 (7th Cir. 2015).
In this case, independent contractors made sales
presentations to physicians regarding specialized blood
testing. Contractors provided general information and
marketing materials but had no input or direct influence
in a physician’s decision to refer a patient for testing.
Nevertheless, the Fourth Circuit held that such routine
marketing activities constituted “referring” patients for
testing or “arranging or recommending” a referral, such
that sales commissions paid to the contractors constituted
prohibited “remuneration” under the AKS, even though
exactly the same conduct would be legal if engaged in by
employees and even though the Fifth Circuit reached a
directly contrary conclusion on indistinguishable facts.
See United States v. Miles, 360 F.3d 472 (5th Cir. 2004).
The question presented is:
Whether the AKS prohibits the payment of sales
commissions to independent contractors who
make marketing presentations to physicians
but who are not medical professionals, have no

ii
contact with patients, and are not even present
when a physician decides to refer a patient for
services?

iii
PARTIES TO THE PROCEEDING
The following list identifies all parties appearing here
and in the United States Court of Appeals for the Fourth
Circuit. See Supreme Court Rule 14.1(b).
Petitioner here, and Defendant-Appellant below, is
Floyd Calhoun Dent, III. Respondents here, and PlaintiffsAppellees below, are the United States of America and qui
tam relators Scarlett Lutz, Chris Reidel, Kayla Webster,
and Dr. Michael Mayes.
Additional Appellants in the Fourth Circuit, who are
not Petitioners here, are Defendants-Appellants Robert
Bradford Johnson, Bluewave Healthcare Consultants,
Inc., and Latonya Mallory; and Parties-in-InterestAppellants Christina M. Dent; Lakelin Pines, LLC;
Trini “D” Island, LLC; AROC Enterprises, LLC; Blue
Eagle Farming, LLC; CAE Properties, LLC; War-Horse
Properties, LLLP; Eagle Ray Investments, LLC; Forse
Investments, LLC; Royal Blue Medical, Inc.; and Cobalt
Healthcare Consultants, Inc.
Additional Defendants in the United States District
Court for the District of South Carolina, who were not
Appellants in the Fourth Circuit and are not Petitioners
here, are Health Diagnostic Laboratory Inc.; Singulex
Inc.; Laboratory Corporation of America Holdings;
Philippe J. Goix, PhD; Berkeley Heartlab, Inc.; and Quest
Diagnostics, Inc.

iv
CORPORATE DISCLOSURE STATEMENT
Petitioner Floyd Calhoun Dent, III is a natural person
for whom no corporate disclosure statement is required
by Supreme Court Rule 29.6.

v
RELATED PROCEEDINGS
In the United States District Court for the District
of South Carolina:
United States of America ex rel. Mayes v. Berkeley
Heartlab Inc., et al., No. 9:11-cv-1593-RMG. Judgment
entered: June 5, 2015 (administratively closed due to
consolidation with No. 9:14-cv-230-RMG).
United States of America, et al. v. BlueWave
Healthcare Consultants Inc., et al., No. 9:14-cv-230RMG. Judgment entered: May 23, 2018.
United States of America, et al., ex rel. Lutz v.
Laboratory Corporation of America Holdings, No.
9:14-cv-3699-RMG. Judgment entered: None (case is
currently pending).
United States of America ex rel. Reidel v.
Heart Diagnostics Laboratory Inc., et al., No.
9:15-cv-2485-RMG. Judgment entered: July 24, 2015
(administratively closed due to consolidation with No.
9:14-cv-230-RMG).
United States of America v. AROC Enterprises,
LLC, et al., No. 9:19-cv-234-RMG. Judgment entered:
None (case is currently pending).
In the United States Court of Appeals for the Fourth
Circuit:
BlueWave Healthcare Consultants Inc., et al.,
Defendants-Appellants v. United States of America,

vi
Intervenor-Appellee, No. 16-1597(L). Judgment
entered: March 23, 2017 (dismissed).
Blue Eagle Farming, LLC, et al., Parties-inInterest-Appellants v. United States of America,
Intervenor-Appellee, No. 16-1600. Judgment entered:
March 23, 2017 (dismissed).
Christina M. Dent, et al., Parties-in-InterestAppellants v. United States of America, IntervenorAppellee, No. 16-1601. Judgment entered: March 23,
2017 (dismissed).
United States of America ex rel. Lutz, PlaintiffsAppellees v. Mallory, Defendant-Appellant, No. 181811(L). Judgment entered: February 22, 2021.
United States of America ex rel. Lutz, PlaintiffsAppellees v. Christina M. Dent, et al., Parties-inInterest-Appellants, No. 18-1812. Judgment entered:
February 22, 2021.
United States of Amer ica of ex rel . Lutz,
Plaintiffs-Appellees v. Robert Bradford Johnson, et
al., Defendants-Appellants, No. 18-1813. Judgment
entered: February 22, 2021.

vii
TABLE OF CONTENTS
Page
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING . . . . . . . . . . . . . . .  iii
CORPORATE DISCLOSURE STATEMENT . . . . . . . iv
RELATED PROCEEDINGS  . . . . . . . . . . . . . . . . . . . . . v
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . vii
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . .  ix
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . x
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATUTORY PROVISIONS INVOLVED  . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 3
A. Petitioner’s Business Operations . . . . . . . . . . . . . 3
B. The Government’s Investigation  . . . . . . . . . . . . . 4
C. District Court Proceedings  . . . . . . . . . . . . . . . . . 5
D. The Decision Below  . . . . . . . . . . . . . . . . . . . . . . . . 8

viii
Table of Contents
Page
REASONS FOR GRANTING THE PETITION . . . . . 9
A. The Decision Below Creates a Circuit Split . . . 10
B. This Dispute Presents a Matter of Exceptional
Importance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
1.

Congress Could Not Have Intended
That Ordinary Marketing Activity
Would Violate the AKS . . . . . . . . . . . . . . . . 13

2.

The Decision Below Nullifies the
Flexibility Congress Built Into the
AKS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  17

3.

The Decision Below Violates the Due
Process Standard Established in Safeco
Insurance Co. v. Burr, 551 U.S. 47
(2007) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

ix
TABLE OF APPENDICES
Page
A P P E N DI X A — O P I N ION O F T H E
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT, FILED
FEBRUARY 22, 2021 . . . . . . . . . . . . . . . . . . . . . . . . . 1a
A P P E N DI X B — O P I N ION O F T H E
UNITED STATES DISTRICT COURT
F OR T H E DI S T R IC T OF S OU T H
CA ROLI NA , BE AU F ORT DI V I SION,
DATED MAY 23, 2018  . . . . . . . . . . . . . . . . . . . . . . . 24a
APPENDIX C — DENIAL OF REHEARING
OF THE UNITED STATES COURT OF
APPEALS FOR THE FOURTH CIRCUIT,
FILED APRIL 21, 2021 . . . . . . . . . . . . . . . . . . . . . . 45a

x
TABLE OF CITED AUTHORITIES
Page
CASES:
In re Keeper of Records (Grand Jury
Subpoena Addressed to XYZ Corp.),
348 F.3d 16 (1st Cir. 2003)  . . . . . . . . . . . . . . . . . . . . . 23
Jones-McNamara v. Holzer Health Sys.,
630 F. App’x 394 (6th Cir. 2015) . . . . . . . . . . . . . . 13, 14
MedPricer.com, Inc. v. Becton, Dixon & Co.,
240 F. Supp. 3d 263 (D. Conn. 2017) . . . . . . . . . . . . . 18
Reynolds v. Behrman Capital IV LP,
2020 WL 4335847 (N.D. Ala. July 28, 2020) . . . . . . . 8
Rock Island A. & L.R. Co. v. United States,
254 U.S. 141 (1920)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
Safeco Insurance Company v. Burr,
551 U.S. 47 (2007) . . . . . . . . . . . . . . . . . . . . . .  10, 19, 20
Trans World Airlines, Inc. v. Thurston,
469 U.S. 111 (1985)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
United States ex rel. Drakeford v. Tuomey,
792 F.3d 364 (4th Cir. 2015) . . . . . . . . . . . . . . . . . . . .  17
United States ex rel. Purcell v. MWI Corp.,
807 F.3d 281 (D.C. Cir. 2015) . . . . . . . . . . . . . . . . 21, 23

xi
Cited Authorities
Page
United States v. DeFries,
129 F.3d 1293 (D.C. Cir. 1997) . . . . . . . . . . . . . . .  16, 17
United States v. Miles,
360 F.3d 472 (5th Cir. 2004) . . . . . . . . . . . 10, 11, 12, 22
United States v. Patel,
778 F.3d 607 (7th Cir. 2015) . . . . . . . . . . . . . . . . . . . . 13
United States v. Polin,
194 F.3d 863 (7th Cir. 1999) . . . . . . . . . . . . . . . 8, 12, 15
United States v. St. Junius,
739 F.3d 193 (5th Cir. 2013) . . . . . . . . . . . . . . . 8, 12, 15
United States v. Vernon,
723 F.3d 1234 (11th Cir. 2013) . . . . . . . . . . . . . 8, 12, 15
Universal Health Services, Inc. v.
United States ex rel. Escobar,
136 S. Ct. 1989 (2016)  . . . . . . . . . . . . . . . . . . . . . . . 9, 23
STATUTES AND OTHER AUTHORITIES:
28 U.S.C § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1
31 U.S.C. § 3720  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
31 U.S.C. § 3729(a)(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

xii
Cited Authorities
Page
42 U.S.C. § 1320a-7d . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
42 U.S.C. § 1320a-7b(b) . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
42 U.S.C. § 1320a-7b(g) . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
42 U.S.C. § 1320a-7b(b)(1)(B)  . . . . . . . . . . . . . . . . . . . . . 13
42 U.S.C. § 1320a-7b(b)(2)(B) . . . . . . . . . . . . . . . . . . . . . 13
42 U.S.C. § 1320a-7b(b)(3) . . . . . . . . . . . . . . . . . . . . . . . . 18
42 U.S.C. § 1320a-7b(b)(3)(B) . . . . . . . . . . . . . . . . . . . . .  17
Cl ar if i ca ti o n of OIG Safe Harbo r AntiKickback Provisions, 59 Fed. Reg. 37202,
1994 WL 377320 (July 21, 1994)  . . . . . . . . . . . . . . . . 18
Fed. R. Civ. P. 54(b) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
OIG Advisory Op. 99-3, 1999 WL 24984727
(Mar. 23, 1999) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
OIG Guidance, 70 Fed. Reg. 4864 . . . . . . . . . . . . . . . . . . 14
Rachel Brand, U. S. Dep’t of Justice, Limiting Use
of Agency Guidance Documents In Affirmative
Civil Enforcement Cases (Jan. 25, 2018) . . . . . . . . 9-10

1
OPINIONS BELOW
The opinion of the court of appeals (App. 1a-23a) is
reported at 988 F.3d 730. The order of the district court
granting the motion of the United States (the Government)
for entry of judgment pursuant to Federal Rule of Civil
Procedure 54(b) (App. 24a-44a) is unreported.
JURISDICTION
The Fourth Circuit issued its opinion on February
22, 2021. Petitioner filed a timely petition for rehearing
or rehearing en banc, which was denied on April 21,
2021. (App. 45a-48a) Pursuant to this Court’s order of
July 19, 2021, the deadline for filing a petition for a writ
of certiorari was extended to 150 days after the denial of
rehearing, i.e., September 20, 2021. The jurisdiction of
this Court is invoked under 28 U.S.C § 1254(1).
STATUTORY PROVISIONS INVOLVED
The AKS provides in relevant part:
(1) Whoever knowingly and willfully solicits
or receives any remuneration (including any
kickback, bribe, or rebate) directly or indirectly,
overtly or covertly, in cash or in kind—
(A) in return for referring an individual to a
person for the furnishing or arranging for the
furnishing of any item or service for which
payment may be made in whole or in part under
a Federal health care program, or

2
( B) i n r et u r n for … a r r a ng i ng for or
recommending purchasing, leasing, or ordering
any good, facility, service, or item for which
payment may be made in whole or in part under
a Federal health care program,
shall be guilty of a felony and upon conviction
thereof, shall be fined not more than $100,000 or
imprisoned for not more than 10 years, or both.
…
[A] claim that includes items or services
resulting from a violation of this section
constitutes a false or fraudulent claim for
purposes of [31 U.S.C. § 3720].
42 U.S.C. § 1320a-7b(b), (g).
The False Claims Act provides in relevant part:
[A]ny person who … knowingly presents, or
causes to be presented, a false or fraudulent
claim for payment or approval … is liable to the
United States Government for a civil penalty
… plus 3 times the amount of damages which
the Government sustains because of the act of
that person.
31 U.S.C. § 3729(a)(1).

3
STATEMENT OF THE CASE
A. Petitioner’s Business Operations
Petitioner Floyd Calhoun Dent, III (Dent) and his
business partner, Robert Bradford Johnson (Johnson)
met in 2005, when both worked for Berkeley HeartLab
(Berkeley). Dent and Johnson marketed advanced lipid
testing, which detects and enables early treatment of
cardiovascular disease. Latonya Mallory (Mallory) was
also employed by Berkeley, as a lab operations manager.
Although all three worked for Berkeley at the same time,
Dent and Johnson did not know Mallory.
Mallory left Berkeley in 2008 and formed Health
Diagnostic Laboratory (HDL), of which she was CEO.
HDL, like Berkeley, offered advanced blood testing related
to cardiovascular disease and diabetes. Her partners in
HDL were Russ Warnick, a pioneer in advanced lipid
testing, and Dr. Joe McConnell, former director of the
cardiovascular laboratory at the Mayo Clinic. Additionally,
Mallory retained Dennis Ryan, co-founder of the
LeClairRyan law firm, as HDL’s counsel. Ryan and other
LeClairRyan attorneys advised Mallory on virtually every
aspect of HDL’s formation and operation. Among other
things, LeClairRyan advised that HDL should contract
with another entity for marketing services.
In 2009, Petitioner and Johnson were considering
leaving Berkeley to start their own business. Mallory
reached out to them about forming a company to market
HDL’s tests. Petitioner and Johnson left Berkeley and
formed BlueWave, of which each owned 50 percent. HDL’s
and BlueWave’s attorneys then negotiated and drafted a

4
contract establishing the terms on which BlueWave would
provide marketing services to HDL. Under the contract,
BlueWave marketed HDL’s tests in a nine-state region
ranging from Texas to North Carolina. In exchange for
these services, HDL agreed to pay BlueWave a base
amount plus a set percentage of whatever revenues HDL
earned from tests ordered by physicians in BlueWave’s
territory. In 2010, BlueWave entered into a similar
contract with Singulex, another specialty lab.
BlueWave hired individuals to market HDL and
Singulex tests. On the advice of BlueWave’s counsel, who
concluded that BlueWave did not have the organizational
resources to comply with the employment tax laws of
multiple states, BlueWave hired marketers as independentcontractors rather than as employees.
B. The Government’s Investigation
Specialized labs like Berkeley, HDL, Singulex, and
many others face the challenge of getting a blood sample
from the patient’s location to where the lab is—possibly
across the country—while preserving the sample’s
viability for testing. Someone must draw the patient’s
blood, process each vial (HDL’s tests required four vials
of blood), and pack the processed vials for shipping to
Virginia (for HDL) or California (for Singulex). Because
of the specialized nature of their testing, it was not costeffective for HDL or Singulex to embed an employee in
the office of every physician who might order blood drawn
for testing.
One option available to specialty labs was to pay a
larger lab, such as LabCorp or Quest Diagnostics, to draw,

5
process, and ship blood samples. This was not a complete
solution, however. Some labs charged high fees of at least
$25 per specimen, while others simply refused to perform
these services for other labs.
By the time HDL began operating, the standard
industry-wide practice among specialized labs was to
compensate a medical practice for the time its staff spent
collecting, processing, and shipping blood samples for
testing. The amounts paid for such work were known as
process and handling fees (“P&H fees”).
In the early 2010s, the Government began investigating
the payment of P&H fees by specialty labs. As part of that
investigation, in January 2013 the Government issued
subpoenas to HDL, BlueWave, and Singulex. The contracts
between HDL and BlueWave and between Singulex and
BlueWave, as well as BlueWave’s contracts with marketers,
were all produced in response to the subpoenas.
Throughout the Government’s investigation, HDL and
BlueWave were completely open regarding their business
practices, including the payment of sales commissions.
Above all, Petitioner and Johnson believed, and had
been advised by counsel, that their conduct complied
with all applicable laws, including the AKS. During the
course of the investigation, counsel engaged in numerous
discussions with the Government about the legality of
paying P&H fees, but the Government never identified
sales commissions as an area of concern.
C. District Court Proceedings
The proceedings below arose from three actions,
subsequently consolidated, filed by four qui tam relators.

6
The Government intervened and filed its complaint in
intervention on August 7, 2015, naming as defendants
former HDL CEO Latonya Mallory, BlueWave, Petitioner,
and Johnson.1 The Government alleged, in relevant
part, that the named defendants submitted claims to
Medicare, or caused claims to be submitted, that were
false because they were tainted by violations of the
AKS, specifically: (1) P&H fees, which the Government
alleged were remuneration intended to induce physicians
to refer patients for testing by HDL or Singulex; and
(2) commissions paid by HDL or Singulex to BlueWave,
and by BlueWave to its independent contractors, which
the Government contended were remuneration intended
to induce contractors to “recommend” or “arrange for”
physicians’ referrals or patients to HDL or Singulex.
The case was tried to a jury over two weeks in January
2018. The Government’s trial presentation focused almost
exclusively on its assertion that payment of P&H fees
violated the AKS. Payment of commissions was clearly
a secondary concern. For example, of the 60 transcript
pages occupied by the Government’s closing argument,
commissions are mentioned on only eight.
Petitioner and his co-defendants requested an adviceof-counsel instruction, arguing that such an instruction
was required in light of extensive trial evidence that
they had acted in reliance on the advice of numerous
attorneys who advised HDL, Singulex, and BlueWave.
1. The Government also named Berkeley as a defendant.
Berkeley reached a settlement with the Government and was
dismissed from the action in 2017. HDL, Singulex, and Singulex’s
CEO Philippe Goix were all named as defendants in qui tam suits
filed by individual relators but settled the claims against them before
the Government intervened.

7
The Government also proposed an advice-of-counsel
instruction. Experienced health care lawyers drafted
the HDL-BlueWave and Singulex-BlueWave contracts,
including the provisions for sales commission payments.
HDL’s lawyers specifically advised Mallory to have an
independent contractor relationship with BlueWave.
Separately, BlueWave’s attorney advised Petitioner and
Johnson that marketers hired by BlueWave should be
independent contractors. None of these attorneys ever told
Petitioner that paying commissions to marketers might
violate the AKS. No issues regarding the contracts—
including the payment of commissions—were ever raised
during external compliance audits commissioned by HDL
and Singulex. And throughout its lengthy and intensive
investigation of HDL and BlueWave, the Government
never suggested that paying commissions to independentcontractor marketers might violate the AKS.
In its verdict, the jury inexplicably exonerated
BlueWave while finding Petitioner and Johnson liable.
The jury held Petitioner and Johnson responsible for
35,074 false claims submitted by HDL, with a total value
of $16,601,591.00, and for 3,813 false claims submitted
by Singulex, with a total value of $467,935.00. 2 Id. After
trebling of damages and imposition of civil penalties of
$5,000 per claim, the district court entered judgment
against Petitioner, jointly and severally, for over $114
million.
Petitioner, Johnson, and Mallory timely filed notices
of appeal on July 13, 2018.
2. The jury also found Mallory liable for the 35,074 false claims
submitted by HDL.

8
D. The Decision Below
After focusing its investigation, complaint, and
trial presentation almost exclusively on P&H fees,
the Government abruptly switched gears on appeal.
Tacitly acknowledging its failure to establish liability
based on HDL’s and Singulex’s payment of P&H fees,
the Government’s appellate brief focused primarily
on payment of commissions. The Government began
emphasizing commissions only after Petitioner’s opening
brief demonstrated that the Government had failed to
prove Petitioner willfully violated the AKS by paying
P&H fees. Accord Reynolds v. Behrman Capital IV LP,
2020 WL 4335847, *6 (N.D. Ala. July 28, 2020) (because
legality of P&H fees was unclear prior to 2014, the Mintz
Levin law firm did not commit malpractice by advising
a competitor of HDL that P&H fees were “risky” rather
than that they were illegal).
The Fourth Circuit affirmed in a published per
curiam opinion issued on February 22, 2021. (App. 1a-23a)
The court rested affirmance on its uncritical acceptance
of the Government’s theory that payment of commissions
to independent contractors who make marketing
presentations is “remuneration” for “arranging for or
recommending” referrals, and thus is a per se violation of
the AKS. The court likened commissions paid to BlueWave
sales contractors to clandestine kickbacks to individuals
who (1) controlled the selection of a pacemaker-monitoring
service, United States v. Polin, 194 F.3d 863 (7th Cir.
1999); (2) recruited patients for orders of unprescribed
medical equipment, United States v. St. Junius, 739
F.3d 193 (5th Cir. 2013); or (3) decided which specialty
pharmacy would fill a patient’s expensive prescription,
United States v. Vernon, 723 F.3d 1234 (11th Cir. 2013).

9
REASONS FOR GRANTING THE PETITION
This case starkly illustrates the devastating
consequences of imposing quasi-criminal liability under
the False Claims Act. It is a case where concerns about
fair notice and disproportionate liability have not been
addressed at all, let alone through “strict enforcement
of the Act’s materiality and scienter requirements,” as
required by this Court’s decision in Universal Health
Services, Inc. v. United States ex rel. Escobar, 136 S. Ct.
1989, 2002 (2016). BlueWave’s contracts with its marketers,
as well as the HDL-BlueWave and the Singulex-BlueWave
contracts, were structured in accordance with the
advice of numerous, highly qualified counsel from large,
nationally known healthcare law firms like LeClairRyan
(representing HDL) and Ballard Spahr (representing
Singulex). No prior agency guidance suggested to these
lawyers that sales commissions would be deemed illegal
kickbacks. Petitioner continued to seek, and to follow,
counsel’s advice throughout the time relevant to this case.
When the Government began its investigation, Petitioner
was open and forthright about BlueWave’s business
arrangements, which were set forth in written contracts
drafted by numerous attorneys and reviewed by outside
auditors. Despite all of this, an honest businessmen has
been ruined because he was found to have crossed an
invisible, moving line set by Government attorneys and
administrators, not by Congress or duly empowered
regulators. 3
3. The Government could not bring this case today. A
Department of Justice policy adopted during the midst of the trial
of this case now prohibits “use [of] its enforcement authority to
effectively convert agency guidance documents into binding rules.”
Rachel Brand, U. S. Dep’t of Justice, Limiting Use of Agency

10
The Petition should be granted. First, the Fourth
Circuit’s decision creates a clearly defined circuit split and,
in so doing, unjustifiably expands the reach of the AKS,
a criminal statute. Second, this is a matter of exceptional
importance. In Safeco Insurance Company v. Burr, 551
U.S. 47 (2007), this Court reiterated the important Due
Process principle that imposition of criminal or quasicriminal liability is only permitted where there has been
fair notice of what conduct is prohibited. The Fourth
Circuit’s decision purports to adhere to Safeco but in fact
disregards Safeco’s plain holding in favor of a ruling that
exacerbates the due process problem identified in Safeco:
the imposition of liability based not on the law but on the
subjective (and possibly biased) views of individuals with
no policy-making authority.
A. The Decision Below Creates a Circuit Split
In affirming the judgment, the Fourth Circuit held
that it is a felony under the AKS to pay commissions to
independent contractors who make routine marketing
presentations to physicians, while the same commissions
pa id t o employees ma k i ng the sa me ma rket i ng
presentations are legal. As explained infra, this holding
expands the reach of the AKS in a manner wholly
unjustified by either its text or the purpose for which it
was enacted. Additionally, the Fourth Circuit’s holding
conflicts with the Fifth Circuit’s decision in United States
v. Miles, 360 F.3d 472 (5th Cir. 2004), which recognized that
the AKS does not prohibit the payment of commissions to
Guidance Documents In Affirmative Civil Enforcement Cases, at
2 (Jan. 25, 2018), available at https://bit.ly/2u9k1cu. That is exactly
what has been done to Petitioner.

11
non-employee marketers who neither participate in nor
make referrals for medical services.
In Miles, home health care provider APRO contracted
with Premier to market APRO’s services. Premier
distributed literature, business cards, and plates of cookies
to physicians’ offices. “When a physician determined that
home health care services were needed for a patient, the
physician’s office might contact [Premier], who would
then furnish APRO with the patient’s name and Medicare
number for billing purposes.” Id. at 479. APRO paid
Premier $300 for each patient referred by a physician as
a result of Premier’s efforts. See id.
The Fifth Circuit reversed the AKS convictions of
Premier’s owners, agreeing with them that the AKS “was
designed to ensure that a doctor’s independent judgment
regarding patient care is not compromised by promises
of payment from Medicare service providers.” Id. at 480.
Premier’s activities posed no such threat:
Premier supplied promotional materials to
Houston-area doctors describing APRO’s
home health care services. After a doctor had
decided to send a patient to APRO, the doctor’s
office contacted Premier, which then supplied
the necessary billing information to APRO
and collected payment. There was no evidence
that Premier had any authority to act on
behalf of a physician in selecting the particular
home health care provider. … The payments
from APRO to Premier were not made to the
relevant decisionmaker as an inducement or
kickback for sending patients to APRO.

12
Id. (second emphasis added). The Fifth Circuit noted
that its use of the term “relevant decisionmaker” rather
than “physician” recognized that “[t]here are … certain
situations where payments to non-doctors would fall
within the scope of the [AKS].” Id. The court pointed to
Polin as such a case, explaining that because the defendant
in Polin decided which monitoring service to use, he “was
the relevant decisionmaker and his judgment was shown
to have been improperly influenced by the payments he
received from the monitoring service.” Id.
Miles is on all fours with the facts of this case.
Just as APRO contracted with Premier for marketing
services, HDL and Singulex contracted with BlueWave
for marketing services. BlueWave hired independent
contractors who engaged in marketing activities much
like those engaged in by Premier. Just like Premier in
Miles, BlueWave contractors merely informed physicians
about the testing offered by HDL and Singulex. There was
no evidence that any BlueWave contractor had authority
to act on behalf of a physician in referring a particular
patient for testing. To the contrary, BlueWave contractors
had no contact with patients and were not present when
a physician decided to make a referral.
Despite the clear parallels between this case and Miles,
the Fourth Circuit failed to address the Fifth Circuit’s
decision in that case. Moreover, the Fourth Circuit ignored
the qualitative differences between Petitioner’s conduct
and the conduct of the defendants in Miles, on one hand,
and the conduct at issue in Polin, St. Junius, and Vernon,
on the other. The latter three cases involved quid-proquo payments to individuals who influenced or outright
controlled referrals of specific patients.

13
B. This Dispute Presents a Matter of Exceptional
Importance
Certiorari is also warranted because the decision
below vastly expands the reach of the AKS to reach a
broad range of completely innocent conduct.
1.

Congress Could Not Have Intended That
Ordinary Marketing Activity Would Violate
the AKS

Two purposes of the AKS are to promote cost
savings and “protect patients from doctors whose medical
judgments might be clouded by improper financial
considerations.” United States v. Patel, 778 F.3d 607,
612 (7th Cir. 2015). Neither of these goals is advanced by
construing the AKS, as the Government urges and the
Fourth Circuit holds, to bar commissions to independent
sales contractors who do not arrange and are not in any
way involved in making referrals of patients.
The Government contends that sales commissions paid
by HDL and Singulex to BlueWave, and by BlueWave to
its marketers, violated the AKS because they constituted
remuneration for “arranging for or recommending”
referrals to the labs. 42 U.S.C. § 1320a-7b(b)(1)(B), (b)
(2)(B). This theory stretches the text and purpose of
the statute beyond recognition. To constitute an illegal
kickback, remuneration: (1) must be directed at an
individual or entity in a position to refer “Federal health
care program patients,” and (2) reasonably induce
the person or entity to refer such patients. See JonesMcNamara v. Holzer Health Sys., 630 F. App’x 394, 401
(6th Cir. 2015). As a matter of simple logic, no amount of

14
money can induce someone to make or control a referral
when that person is not in a position to do so. A payment
made to a person who is not “in a position to generate
Federal health care program business” cannot be an
inducement for a referral. See OIG Guidance, 70 Fed. Reg.
at 4864; accord Jones-McNamara, 630 F. App’x at 406.
Payment of commissions to BlueWave contractors
cannot violate the AKS because the sales contractors
were never in a position to make referrals or to exercise
control over any physician’s decision to refer a patient for
testing—in the parlance of the Fifth Circuit, they were
never the “relevant decisionmaker.” BlueWave marketers
made generalized sales presentations solely to physicians.
They never met with patients, never conferred with
physicians regarding any patient, and never posed any
threat to any physician’s exercise of independent medical
judgment in deciding to refer a patient for testing by HDL
or Singulex.
Moreover, the Government presented no evidence
that commissions paid to BlueWave contractors subverted
the AKS by increasing amounts paid by Medicare or,
more importantly, by enabling contractors to unduly or
improperly influence physicians’ exercise of professional
judgment. The Government presented no evidence that
any physician ordered any test from HDL or Singulex
based on pressure from a marketer or on any consideration
other than the physician’s determination that testing was
medically necessary. To the contrary, physicians who
referred or arranged HDL or Singulex testing for their
patients testified that the tests were valuable diagnostic
tools that aided in preventing potentially life-threatening
cardiac events.

15
As numerous courts have correctly held, the AKS
prohibits arrangements that masquerade as ordinary
marketing but which actually involve payment of
remuneration as a quid pro quo for corrupt referrals.
See, e.g., Polin, 194 F.3d at 866 (AKS violated where
CVS, a cardiac monitoring service, paid a per-patient
fee to a pacemaker salesperson in exchange for his
recommendation of CVS as a monitoring ser vice;
salesperson’s recommendations were never rejected
and in fact he personally arranged CVS’s monitoring
of the patient); St. Junius, 739 F.3d at 199 (affirming
AKS conviction where home health care employee
surreptitiously provided patient information to durable
medical equipment supplier, who ordered unnecessary
equipment for such patients and paid the employee a
percentage of Medicare reimbursements); Vernon, 723
F.3d at 1254 (affirming conviction under AKS where
a “patient advocate” for hemophiliacs “was effectively
responsible for deciding which specialty pharmacy to use
for filling … patients’ prescriptions”). The activities of
BlueWave marketers bears no resemblance to the corrupt
activities in Polin, St. Junius, and Vernon.
At the very least, the jury should have been allowed
to consider Petitioner’s advice-of-counsel defense. The
commission payment structure appears on the face of
the HDL-BlueWave, Singulex-BlueWave, and BlueWavemarketer contracts. These contracts were negotiated
and drafted by counsel. The uncontradicted evidence
shows that HDL’s counsel recommended an independent
contractor relationship w ith BlueWave. Fur ther,
BlueWave’s counsel recommended the independent
contractor relationship with marketers for reasons that
had nothing to do with the AKS. BlueWave’s counsel

16
was concerned that an employment relationship with
marketers in different states would create tax-reporting
obligations that BlueWave was not administratively
equipped to handle. Petitioner followed counsel’s advice
and created independent-contractor relationships with
BlueWave’s marketers. “A client often comes to his lawyer
with a plan and asks him to find a way to implement it in
a legal manner.” United States v. DeFries, 129 F.3d 1293,
1309 (D.C. Cir. 1997). That is precisely what Petitioner did.
See id. at 1308 (“The district court is required to give [an
advice-of-counsel] instruction if there is any foundation in
the evidence sufficient to bring the issue into the case, even
if that evidence is weak, insufficient, inconsistent, or of
doubtful credibility.” (internal quotation marks omitted)).4
The “good faith” instruction given by the district
court was no substitute for a formal advice-of-counsel
instruction. The Fourth Circuit’s conclusion that the good
faith instruction “captured the essence” of a formal adviceof-counsel instruction (App. 15a), cannot be correct. On
this reasoning, a district court could never err by refusing
4. The prejudice caused by the district court’s refusal to give
an advice-of-counsel instruction becomes even more clear when
it is considered that the district court allowed the Government
to discover Petitioner’s attorneys’ entire files, including attorney
work product, on the grounds that Petitioner had implicitly waived
privilege by invoking advice of counsel in his defense. Notably, the
Government produced no communications between Petitioner and
counsel suggesting that any material information was withheld.
Moreover, the evidence is clear that every attorney was aware how
HDL and BlueWave operated, entitling Petitioner to an advice-ofcounsel instruction. See DeFries, 129 F.3d at 1309 (“So long as the
primary facts which a lawyer would think pertinent are disclosed,
or the client knows the lawyer is aware of them, the predicate for
an advice-of-counsel defense is laid.”).

17
to give a formal advice-of-counsel instruction, so long as
a “good faith” instruction is provided. But a mere “good
faith” instruction omits “one critical piece of the puzzle:
good-faith reliance on advice of counsel [is] a valid defense
that, if proved, require[s] acquittal.” DeFries, 129 F.3d at
1309; see United States ex rel. Drakeford v. Tuomey, 792
F.3d 364, 391-92 (4th Cir. 2015) (Wynn, Circuit Judge,
concurring) (the advice-of-counsel defense provides “a
vehicle for absolving [the defendant] of [FCA] liability”). 5
The “good faith” instruction given by the district court
was no substitute for the advice-of-counsel instruction,
especially considering that the district court also told the
jury “[g]ood faith has no precise definition.” Petitioner was
entitled to an instruction explaining the legal significance
of his defense. See DeFries, 129 F.3d at 1309.
2.

The Decision Below Nullifies the Flexibility
Congress Built Into the AKS

Commissions paid to employees fall into one of the
AKS’s statutory safe harbors. See 42 U.S.C. § 1320a-7b(b)
(3)(B). The Government’s theory—which was barely
an afterthought at trial but became the centerpiece of
its argument on appeal—is that because commission
compensation paid to independent contractors does not
5. The Fourth Circuit cited Tuomey in its discussion of whether
Petitioner should have been “warned away” from hid reasonable
interpretation of the AKS. (App. 8a) But Tuomey involved conflicting
opinions from retained counsel, not unsolicited comments from third
parties. Moreover, the conflicting advice did not preclude giving a
formal advice-of-counsel instruction. Tuomey, 792 F.3d at 380-81.
Rather, it precluded the district court from granting Tuomey’s
judgment as a matter of law. Id.

18
fall within the employee safe harbor, it is a per se violation
of the AKS. In affirming, the Fourth Circuit adopted
the Government’s binary view of the AKS, holding that
because BlueWave marketers were contractors rather
than employees, payment of commissions necessarily
violated the AKS.
Certiorari review is warranted because the Fourth
Circuit’s decision effectively rewrites the AKS, expanding
the scope of criminal liability under the AKS in a way that
cannot be squared with congressional intent as expressed
in the statutory language. The necessary consequence
of the Fourth Circuit’s flawed reasoning is that any
compensation arrangement that does not meet the criteria
for a safe harbor must be a violation of the AKS. But that
is not the law.
To ameliorate the breadth of the AKS, Congress
enacted statutory safe harbors and has authorized the
OIG to create other safe harbors via regulation. 42 U.S.C.
§ 1320a-7b(b)(3); 42 U.S.C. § 1320a-7d; see MedPricer.
com, Inc. v. Becton, Dixon & Co., 240 F. Supp. 3d 263,
269 (D. Conn. 2017). The Government’s binary view of
the AKS—payments that meet safe harbor criteria are
legal, all others are illegal— reflects a fundamental
misunderstanding of the AKS. The OIG long ago made
clear that a payment practice does not violate the AKS
simply because it does not fall into a safe harbor. “Whether
a particular payment practice violates the statute is a
question that can only be resolved by an analysis of the
elements of the statute as applied to that set of facts,”
including the parties’ intent. Clarification of OIG Safe
Harbor Anti-Kickback Provisions, 59 Fed. Reg. 37202,
37203, 1994 WL 377320 (July 21, 1994).

19
In fact, the OIG has indicated approval of at least
one commission-based payment practice involving an
independent contractor. See OIG Advisory Op. 99-3,
1999 WL 24984727, at *7 (Mar. 23, 1999). In Advisory
Opinion 99-3, the inquirer proposed to pay a contract sales
agent a commission of 20 percent of sales of specialized
mattresses. Because this practice did not qualify for a safe
harbor, the OIG considered its particular characteristics.
Id. The OIG concluded the practice posed a low risk of
overutilization and thus did not run afoul of the AKS.6 Id.
The OIG concluded, “Of course, in all cases the statute is
not violated unless the parties have the requisite intent
to induce referrals.” Id.
3.

The Decision Below Violates the Due Process
Standard Established in Safeco Insurance Co.
v. Burr, 551 U.S. 47 (2007)

To establish an AKS violation, the Government had to
prove Petitioner acted willfully, i.e., that he “either knew
or showed reckless disregard for … whether [his] conduct
was prohibited by” the AKS. Trans World Airlines, Inc. v.
Thurston, 469 U.S. 111, 127 (1985). The decision below does
not deny that Petitioner, advised by counsel, reasonably
interpreted the AKS to permit commission payments
to marketers of HDL and Singulex testing. The Fourth
Circuit held, however, that Petitioner was “warned” by
unofficial, non-authoritative sources—such as statements
in a demand letter written by an attorney representing
6. Among other things, the OIG noted that the commission
was a fixed percentage, i.e., the percentage did not change as the
volume or value of referrals increased. Id. The agreements at issue
here, likewise, set a fixed percentage that did not change with the
volume or value of sales.

20
a former BlueWave contractor, even though that same
lawyer and his client subsequently cashed a check paying
the very sales commissions the lawyer claimed violated
the AKS—that paying commissions “might well” violate
the AKS. (App. 8a) This reasoning conflicts with Safeco,
which clearly holds that only authoritative guidance can
warn a defendant away from an objectively reasonable
interpretation. See Safeco, 551 U.S. at 70.
In Safeco, this Court held that the defendants’
reliance on an objectively reasonable interpretation of
the Fair Credit Reporting Act precluded a finding that
they recklessly disregarded their obligations under the
Act. Id. at 69-70. The Court reasoned that establishing
reckless disregard required proof that the defendants’
interpretation created a “substantially greater” risk of
a violation than a “merely careless” interpretation. Id.
at 69. This standard cannot be met when the defendant
relies on an objectively reasonable interpretation of the
law—especially when the interpretation is based on the
advice of counsel—at least in the absence of authoritative
guidance to the contrary:
This is not a case in which the business subject
to the Act had the benefit of guidance from
the courts of appeals or the Federal Trade
Commission (FTC) that might have warned it
away from the view it took. Before these cases,
no court of appeals had spoken on the issue, and
no authoritative guidance has yet come from
the FTC[.]
Id. at 70.

21
In United States ex rel. Purcell v. MWI Corp., 807
F.3d 281 (D.C. Cir. 2015), the court applied Safeco to an
FCA case. To obtain loans from the Export-Import Bank,
MWI certified that it paid only “regular commissions” to
agents, based on its reasonable interpretation of “regular
commissions” to mean amounts consistent with past
commissions paid to that agent. MWI was found liable
under the FCA based on the government’s interpretation
of “regular commissions” to mean amounts consistent with
industry benchmarks. Id. at 284-85.
Relying on Safeco, the D.C. Circuit reversed. The court
held that MWI’s interpretation of “regular commissions”
was objectively reasonable and there was no official agency
guidance that could have “warned away” MWI. Id. at 28990. Notably, the court rejected evidence that the Bank had
informally advised MWI that “regular commissions” should
be about five percent, holding that “this suggestion hardly
amounts to the necessary ‘authoritative guidance’” required
by Safeco. Id. at 289. Similarly, the court held that MWI was
not warned away by concerns some employees expressed
about the correctness of MWI’s interpretation. Id.
The Fourth Circuit’s assertion that Petitioner was
“repeatedly ‘warned away from [his] interpretation’”
of the AKS (App. 10a), contradicts both Safeco (which
the court did not cite) and Purcell (which it attempted,
unconvincingly, to distinguish as involving contractual
rather than statutory language). Safeco clearly holds
that a defendant relying on an objectively reasonable
interpretation of a statute can only be “warned away” from
that interpretation by “authoritative guidance” from the
enforcing agency or an appellate court. Safeco, 551 U.S.
at 70. Under Safeco, the concerns expressed by HDL’s

22
in-house counsel (which were unknown to Petitioner) or
agenda-driven positions taken by outsiders like Brian
Dickerson cannot establish willfulness in the face of
Petitioner’s objectively reasonable interpretation of the
AKS.7
The Fourth Circuit opinion ignores that Petitioner’s
objectively reasonable interpretation of the AKS was
based on the advice of the many lawyers with substantial
experience in healthcare law who advised HDL, Singulex,
and BlueWave. Experienced health care lawyers drafted
the HDL/BlueWave and Singulex/BlueWave contracts,
including the commission payments. HDL’s lawyers
advised Mallory to have an independent contractor
relationship with BlueWave. Separately, BlueWave’s
attorney advised Petitioner and Johnson that marketers
should be independent contractors. 8 None of these
attorneys ever so much as suggested to Petitioner that
paying commissions to marketers might violate the AKS.9
7. There is, however, authoritative guidance supporting
Petitioner’s interpretation of the AKS. See Miles, 360 F.3d at 48081, discussed supra.
8. The Fourth Circuit faulted Petitioner for relying on
BlueWave’s counsel, Sellers, who is not a health care specialist.
But Petitioner’s reliance on Sellers is not evidence that he willfully
violated the AKS.
The opinion also unfairly criticizes Petitioner for not obtaining
a legal opinion approving commission payments to marketers, even
though he had no reason to do so. HDL, not BlueWave, submitted
claims to Medicare, and it was acting pursuant to advice given by
numerous well-qualified health care lawyers.

9. Petitioner was paid commissions as an employee of
Berkeley Heartlab. He was never advised that employees can earn
commissions but independent contractors cannot.

23
No issues were raised in external compliance audits
commissioned by HDL and Singulex. Throughout its
lengthy and intensive investigation of HDL and BlueWave
the government never suggested that commission
payments were at issue.
CONCLUSION
Justice Oliver Wendell Holmes wrote that “[m]en must
turn square corners when they deal with the Government.”
See Rock Island A. & L.R. Co. v. United States, 254 U.S.
141, 143 (1920). “That advice cuts both ways: those who deal
with the government have a right to expect fair treatment
in return.” In re Keeper of Records (Grand Jury Subpoena
Addressed to XYZ Corp.), 348 F.3d 16, 26 (1st Cir. 2003).
Nowhere is the Government’s obligation to deal fairly with
its citizens more critical than under the FCA and AKS.
Serious due process concerns are raised when individuals
are subjected to ruinous FCA liability for an incorrect,
but reasonable, interpretation of an ambiguous statute,
arrived at in reliance on the advice of qualified counsel.
See Purcell, 807 F.3d at 287-88. This Court has acted, in
Escobar, Safeco, and other cases, to rein in Government
overreach that results in punitive, confiscatory judgments
imposed on individuals like Petitioner.
Petitioner respectfully requests that the Petition be
granted.

24
Respectfully Submitted by,
M. Dawes Cooke
Christopher M. Kovach
Barnwell Whaley Patterson
& Helms, LLC
211 King Street, Suite 300
Post Office Drawer H
Charleston, SC 29402
(843) 577-7700
Joseph P. Griffith, Jr.
Joe Griffith Law Firm, LLC
946 Johnnie Dodds Boulevard
Mt. Pleasant, SC 29464
(843) 225-5563

Kirsten E. Small
Counsel of Record
William W. Wilkins
Nexsen Pruet
104 South Main Street,
Suite 900
Greenville, SC 29601
(864) 370-2211
ksmall@nexsenpruet.com

Counsel for Petitioner

APPENDIX

1a
Appendix A — Appendix
opinionAof the united
states court of appeals for the fourth
circuit, filed february 22, 2021
United States Court of Appeals
for the Fourth Circuit
No. 18-1811
UNITED STATES OF AMERICA, and the State
of North Carolina, California and
Illinois, ex rel., SCARLETT LUTZ, Relator;
CHRIS REIDEL; KAYLA WEBSTER, Relator;
DR. MICHAEL MAYES, Relator,
Plaintiffs - Appellees,
v.
LATONYA MALLORY,
Defendant - Appellant,
and
HEALTH DIAGNOSTIC LABORATORY INC.;
SINGULEX INC.; LABORATORY CORPORATION
OF AMERICA HOLDINGS; BLUEWAVE
HEALTHCARE CONSULTANTS, INC.; PHILIPPE J.
GOIX, PhD; FLOYD CALHOUN DENT, III; ROBERT
BRADFORD JOHNSON; BERKELEY HEARTLAB,
INC.; QUEST DIAGNOSTICS, INCORPORATED,
Defendants.

2a
Appendix A
No. 18-1812
UNITED STATES OF AMERICA, and the
States of North Carolina, California
and Illinois, ex rel., SCARLETT LUTZ,
Relator; DR. MICHAEL MAYES, Relator;
CHRIS RIEDEL; KAYLA WEBSTER, Relator,
Plaintiffs - Appellees,
v.
CHRISTINA M. DENT; LAKELIN PINES, LLC;
TRINI “D” ISLAND, LLC,
Parties-in-Interest - Defendants,
and
LATONYA MALLORY; HEALTH DIAGNOSTIC
LABORATORY INC.; LABORATORY
CORPORATION OF AMERICA HOLDINGS;
PHILIPPE J. GOIX, PhD; BERKELEY HEARTLAB,
INC.; QUEST DIAGNOSTICS, INCORPORATED;
SINGULEX INC.; BLUEWAVE HEALTHCARE
CONSULTANTS, INC.; FLOYD CALHOUN
DENT, III; ROBERT BRADFORD JOHNSON,
Defendants.

3a
Appendix A
No. 18-1813
UNITED STATES OF AMERICA, and the
State of North Carolina, California
and Illinois, ex rel., SCARLETT LUTZ;
KAYLA WEBSTER; CHRIS RIEDEL;
DR. MICHAEL MAYES,
Plaintiffs - Appellees,
v.
ROBERT BRADFORD JOHNSON; FLOYD
CALHOUN DENT, III; BLUEWAVE HEALTHCARE
CONSULTANTS, INC.,
Defendants - Appellants,
AROC ENTERPRISES, LLC; BLUE EAGLE
FARMING, LLC; CAE PROPERTIES, LLC; WARHORSE PROPERTIES, LLLP; EAGLE RAY
INVESTMENTS, LLC; FORSE INVESTMENTS,
LLC; ROYAL BLUE MEDICAL INCORPORATED;
COBALT HEALTHCARE CONSULTANTS, INC.,
Parties-in-Interest - Appellants,
and
BERKELEY HEARTLAB, INC.;
LATONYA MALLORY,
Defendants.

4a
Appendix A
Appeals from the United States District Court for the
District of South Carolina, at Beaufort. Richard Mark
Gergel, District Judge. (9:11-cv-01593-RMG; 9:14-cv00230-RMG; 9:15-cv-02485-RMG).
December 8, 2020, Argued
February 22, 2021, Decided
Before MOTZ, WYNN, and FLOYD, Circuit Judges.
Affirmed by published opinion. Judge Motz wrote the
opinion, in which Judge Wynn and Judge Floyd joined
DIANA GRIBBON MOTZ, Circuit Judge:
LaTonya Mallory, the owner of a blood testing
laboratory, and the two men who led its sales operation,
Floyd Calhoun Dent III and Robert Bradford Johnson
(collectively, “Defendants”), appeal a jury verdict finding
them liable for multiple violations of the False Claims
Act, 31 U.S.C. § 3729. During a twelve-day trial, the
Government presented evidence that Defendants violated
the Act in several ways, including by paying physicians
for drawing patients’ blood and processing the blood
samples in violation of the Anti-Kickback Statute, 42
U.S.C. § 1320a-7b(b). Notwithstanding their vigorous
protestations of innocence, the jury found that Defendants
had indeed violated the False Claims Act and assessed
actual damages in excess of $16 million. In a series of
careful opinions, the district court denied their post-trial
motions for judgment as a matter of law and for a new
trial. After trebling the actual damages and adding civil

5a
Appendix A
penalties, as required by the False Claims Act, the district
court entered judgment against all three Defendants
for $111,109,655.30 and against Dent and Johnson for an
additional $3,039,006.56. For the reasons that follow, we
affirm the judgment of the district court in all respects.
I.
In 2 0 0 8 , Mallor y founded Health Diag nostic
Laboratory (“HDL”), which provided blood testing for
cardiovascular disease and diabetes. One year later, Dent
and Johnson formed BlueWave Healthcare Consultants,
Inc., which entered into an exclusive contract with HDL
to market and sell HDL’s tests. In addition to a base
fee, HDL agreed to pay BlueWave a percentage of its
revenue based on the number of HDL blood tests that
physicians ordered. In 2010, BlueWave entered into a
similar agreement with another lab, Singulex, which also
provided blood testing for cardiovascular disease. This
contract, too, permitted BlueWave to collect a base amount
plus a sales commission based on the number of tests sold.
HDL agreed to pay BlueWave between 13.8 and 19.8
percent of the revenue it generated for HDL. Singulex
agreed to pay BlueWave 24 percent of the revenue it
generated for HDL. To fill out its sales force, BlueWave
then contracted with other independent salespeople.
Under these agreements, the salespeople also obtained
commissions based on the volume of sales made.
HDL and Singulex used the same business model: in
exchange for ordering one of their blood tests, the labs

6a
Appendix A
paid physicians a “process and handling fee” (“P&H fee”).
According to Defendants, the P&H fee covered the costs
physicians incurred when preserving a blood sample
and shipping it to either HDL or Singulex. HDL paid
physicians a $3 “draw fee” (compensation for drawing
blood) plus a $17 P&H fee (compensation for handling and
shipping the blood samples), for a total of $20. Singulex
paid physicians $13 for drawing and processing the blood.
Between 2010 and June 2014, Medicare and TRICARE
(the federal health care plan for members of the military)
paid HDL approximately $538 million and HDL paid
BlueWave approximately $220 million. Medicare and
TRICARE paid Singulex approximately $47 million, and
Singulex paid BlueWave approximately $24 million.
At tr ial, the Government contended that the
volume-based commissions paid by HDL and Singulex
to BlueWave and its sales contractors violated the AntiKickback Statute because these commissions constituted
“remuneration” intended to induce sales representatives
to sell as many tests as possible. The Anti-Kickback
Statute prohibits “knowingly and willfully” soliciting or
receiving remuneration in exchange for “arranging for the
furnishing” of a healthcare service and “recommending
purchasing” a healthcare service. 42 U.S.C. § 1320a-7b(b)
(1). It also prohibits “knowingly and willfully” paying
remuneration to “induce” someone to take such actions.
Id. § 1320a-7b(b)(2). The Government maintained that
the statute thus prohibited HDL and Singulex from
paying BlueWave for inducing others to arrange the tests.
Similarly, the Government contended that the statute

7a
Appendix A
prohibited BlueWave from paying its salespeople for
recommending purchase of the tests. The Government
argued that since Defendants knowingly entered into
agreements to pay independent contractors based on
volume, they violated the Anti-Kickback Statute. Because
that statute provides that a claim that violates its terms
also “constitutes a false or fraudulent claim” under the
False Claims Act, id. § 1320a-7b(g), the Government
contended that this Anti-Kickback Statute violation also
gave rise to liability under the False Claims Act. The
jury agreed.
II.
Defendants assert that the district court fundamentally
erred in denying them judgment as a matter of law. See
Fed. R. Civ. P. 50(b). We review the denial of a judgment
as a matter of law de novo, but reverse only if substantial
evidence does not support the jury’s findings. Konkel v.
Bob Evans Farms Inc., 165 F.3d 275, 279 (4th Cir. 1999).
We can set aside the verdict only if “no rational trier of
fact could have agreed with the jury.” Cavazos v. Smith,
565 U.S. 1, 2, 132 S. Ct. 2, 181 L. Ed. 2d 311 (2011) (per
curiam).
A.
Defendants initially and principally contend that the
Government failed to prove that they “knowingly and
willfully” violated the Anti-Kickback Statute, see 42 U.S.C.
§ 1320a-7b(b)(1), and so they cannot have “knowingly”
run afoul of the False Claims Act. This argument rings

8a
Appendix A
hollow. The Government provided abundant evidence as
to Defendants’ knowledge and intent.
Attorneys from within both HDL and BlueWave warned
Defendants that paying commissions to independent
contractors might well violate the Anti-Kickback Statute.1
For example, in August 2012, HDL’s general counsel,
Derek Kung, wrote a memo to HDL board members
— including Mallory — explaining that its BlueWave
contract posed a “high degree of risk” of violating the
Anti-Kickback Statute. Kung explained that the U.S.
Department of Health and Human Services’s Office of the
Inspector General “has provided commentary regarding
its concern over independent contractor sales agreements
with compensation based on a percentage of sales.” He
urged the Board to change to an “employee based sales
system.”
Similarly, HDL employee Nicholas Pace, a lawyer
who oversaw HDL’s compliance efforts, testified that he
recognized that the Anti-Kickback Statute prohibited
arrangements like the commission-based one with
BlueWave, and that he discussed these concerns in
meetings with board members, including Mallory. He
told the Board that HDL’s arrangement with BlueWave
was concerning because HDL “rel[ied] on a third party
that owned the customer relationship, paying them tens
of millions of dollars under that arrangement.” And in
1. Because we conclude that the Government provided sufficient
evidence to show that the commissions violated the Anti-Kickback
Statute and accordingly the False Claims Act, we do not address the
Government’s other theories of liability.

9a
Appendix A
November 2013, an attorney working for BlueWave sent
Johnson the opinion in United States v. Vernon, 723 F.3d
1234 (11th Cir. 2013), which upheld a conviction under
the Anti-Kickback Statute based on the payment of
commissions to a third party.
The Government also offered evidence that outside
lawyers warned all three Defendants about the illegality
of the commissions. Brian E. Dickerson, an attorney for
BlueWave salesperson Emily Barron, testified that he
cautioned BlueWave about problems with the commissions
in September 2013. He recalled that Barron came to him
with a legal opinion from another lawyer stating that both
the P&H fees and the volume-based commission structure
violated the Anti-Kickback Statute, so she asked him to
review her contract with BlueWave. Dickerson agreed that
the scheme was not legal and advised Barron to terminate
her relationship with BlueWave.
Dickerson also attempted to reach someone at
BlueWave who could offer a legal opinion as to its business
practices. At one point, Mallory forwarded an email
from Dickerson to her colleagues, including Dent and
Johnson. In her email, Mallory stated that Dickerson
“communicated to Derek [Kung] yesterday and again
today that he has issues with the [BlueWave] contract.”
Dickerson testified that he told three BlueWave
attorneys directly that the commissions violated the AntiKickback Statute. He never received a legal opinion from
BlueWave in response. Shortly thereafter, BlueWave fired
Barron. From these clear warnings about the commissions

10a
Appendix A
scheme’s potential illegality, a reasonable jury could
certainly infer that Defendants “knowingly and willfully”
offered or accepted remunerations in violation of the AntiKickback Statute.
Moreover, Defendants’ justifications for their continued
blind eye to illegal activity in no way undermines the jury’s
conclusion as to their knowledge. Defendants claim that
because the Anti-Kickback Statute is ambiguous, they
could have reasonably concluded that the statute did not
prohibit volume-based commissions, and so they cannot
have knowingly violated the False Claims Act. They rely
on U.S. ex rel. Purcell v. MWI Corp., 807 F.3d 281, 420
U.S. App. D.C. 176 (D.C. Cir. 2015), but that case involved
a dispute over duties based on ambiguous contractual
language, not a claim based on assertedly ambiguous
statutory language. In any event, contentions “like these
— that a defendant cannot be held liable for failing to
comply with an ambiguous term — go to whether the
government proved knowledge.” Id. at 287. Here, unlike in
Purcell, Defendants were repeatedly “warned away from
[their] interpretation” of purportedly ambiguous terms,
including by legal practitioners. Id. at 288. Ample evidence
permitted the jury to conclude that Defendants willfully
violated the Anti-Kickback Statute, and so knowingly
violated the False Claims Act.
Nor do we find any more persuasive Defendants’
contention that they could not have known about the
commissions’ illegality because attorneys helped draft the
contracts providing for commission payments. Defendants
point to no legal opinion on which they relied in concluding

11a
Appendix A
that the Anti-Kickback Statute permitted commission
payments to independent contractors. Moreover, the
jury could have reasonably concluded that Defendants
should have given more consideration to the many
subsequent warnings about the commissions. See U.S.
ex rel. Drakeford v. Tuomey, 792 F.3d 364, 381 (4th Cir.
2015) (“In determining whether [defendants] reasonably
relied on” the advice of counsel, the jury “was entitled to
consider all the advice given to it by any source.” (internal
citation omitted)).
Similarly, Defendants cannot rely on outside audits
as a justification for questioning the legality of the
commission scheme. These audits did not require the jury
to find that Defendants acted legally. In fact, one auditor
specifically explained that its services were “not designed,
nor should they be relied upon, to disclose . . . illegal acts.”
In sum, Defendants offer no argument or evidence
that required the district court to grant them judgment
as a matter of law. Rather, based on all of the evidence
presented at trial, a reasonable jury could conclude that
Defendants willfully paid commissions to independent
contractors and, accordingly, that they knowingly violated
the Anti-Kickback Statute. Of course, the jury did not
have to reach this conclusion — but certainly the evidence
offered by the Government permitted it to do so.
B.
Defendants also contend that they are entitled
to judgment as a matter of law because, assertedly,

12a
Appendix A
commissions to salespeople can never constitute kickbacks
under the Anti-Kickback Statute. But no language in
the statute so provides. Moreover, federal appellate
courts have frequently, and indeed invariably, upheld
Anti-Kickback Statute violations based on commission
payments to third parties. See, e.g., United States v. St.
Junius, 739 F.3d 193, 209-10 (5th Cir. 2013); United States
v. Vernon, 723 F.3d 1234, 1256-58 (11th Cir. 2013); United
States v. Polin, 194 F.3d 863, 864-66 (7th Cir. 1999).
The Anti-Kickback Statute does include a statutory
safe harbor for commissions paid to salespeople who
are “employee[s]” that have a “bona fide employment
relationship” with their employer. 42 U.S.C. § 1320a-7b(b)
(3)(B). But the Department of Health and Human Services
has expressly recognized that this safe harbor does not
cover independent contractors. In 1989, when considering
regulatory safe harbors, the agency noted that “many
commenters” wanted to expand the safe harbor “to
apply to independent contractors paid on a commission
basis,” but it “declined to adopt this approach.” 54 Fed.
Reg. 3088, 3093 (Jan. 23, 1989). The agency explained
that it refused to do so because of the “many examples
of abusive practices by sales personnel who are paid as
independent contractors.” Id. The Department then noted
that if employers “desire to pay [] salesperson[s] on the
basis of the amount of business they generate,” they
“should make these salespersons employees” to avoid
“civil or criminal prosecution.” Id. Two years later, in
1991, when the Department finalized its safe harbor rules,
it again refused to apply the commissions safe harbor
to independent contractors “because of the existence of

13a
Appendix A
widespread abusive practices by salespersons who are
independent contractors.” 56 Fed. Reg. 35,952 (July 29,
1991).
Defendants also argue that, because BlueWave sales
representatives did not directly refer HDL or Singulex
tests to patients, Defendants cannot be liable under the
Anti-Kickback Statute. But they misread the plain text
of the statute. The statute expressly prohibits individuals
from receiving remuneration in exchange for “arranging
for or recommending purchasing” healthcare services. 42
U.S.C. §§ 1320a-7b(b)(1)(B), (b)(2)(B). This includes sales
representatives who are compensated for recommending
a healthcare service, like the HDL or Singulex tests, to
physicians. See Vernon, 723 F.3d at 1254 (explaining that
no provision of the Anti-Kickback Statute is “limited to
payments to physicians”); Polin, 194 F.3d at 866 (noting
that § 1320a-7b(b)(2)(B) penalizes the recommendation of
healthcare services, regardless of who recommends them).
Again, Defendants’ argument does not provide a basis for
judgment as a matter of law.
III.
In addition to their claim of entitlement to judgment
as a matter of law, Defendants offer a litany of reasons
why the district court assertedly erred in denying them
a new trial. We review denials of a new trial for abuse of
discretion, and a new trial is warranted only if the verdict
is against the clear weight of the evidence, based upon
false evidence, or will result in a miscarriage of justice.
Minter v. Wells Fargo Bank, N.A., 762 F.3d 339, 346 (4th
Cir. 2014).

14a
Appendix A
A.
First, Defendants contend that they are entitled to a
new trial based on a variety of purported legal errors in
the district court’s jury instructions.
i.
Defendants argue that the district court erred
in refusing to give a stand-alone advice-of-counsel
instruction. To establish the advice-of-counsel defense, a
“defendant must show the (a) full disclosure of all pertinent
facts to [counsel], and (b) good faith reliance on [counsel’s]
advice.” Drakeford, 792 F.3d at 381 (alterations in original)
(quoting United States v. Butler, 211 F.3d 826, 833 (4th
Cir. 2000)).
Defendants requested an instruction stating that they
“have asserted an affirmative defense of advice of counsel
to the Government’s allegations that they violated the
False Claims Act” and that the affirmative defense, “if
true, will completely defeat the Government’s allegations
under the False Claims Act.” The district court refused
to give this instruction because it concluded that the
instruction did not fit the facts of the case.
This was so, the court explained, because Defendants
did not produce evidence that they made full disclosure
of all pertinent facts to counsel, nor did they identify any
specific legal opinion, written or otherwise, that they
relied upon from HDL and BlueWave’s formation until
at least 2012. In response, Defendants point to an email

15a
Appendix A
sent by an attorney from the law firm LeClairRyan to
his colleague in 2009. However, Defendants offered no
evidence that they ever read this email. And in the email,
the lawyer simply says that in his “recollection, P&H fees
do[] not run afoul of Anti-[K]ickback,” but he “want[ed]
to confirm that no recent OIG [o]pinions have slipped past
[him].” This is hardly a clear endorsement of the P&H fee
structure.
Furthermore, although the district court did not give
the advice-of-counsel affirmative defense instruction
proposed by Defendants, it did instruct the jury to
consider Defendants’ “good faith” reliance on legal advice.
The court explained:
A defendant who acts with a good-faith belief
that his or her conduct is lawful does not willfully
violate the Anti-Kickback Statute even if that
belief is mistaken . . . . In determining whether
a defendant acted in good faith, you must
consider the totality of the evidence presented.
This includes all of the legal opinions and
advice received by or known to the defendant,
regardless of the source, to determine whether
the defendant acted in good faith.
This charge captured the essence of Defendants’ proposed
instruction — if the jury found that Defendants, relying
on the advice of counsel, had a good-faith belief that their
conduct was legal, then they did not violate the AntiKickback Statute. Thus, the district court’s refusal to
give the stand-alone advice-of-counsel instruction that

16a
Appendix A
Defendants requested provides no basis for reversal. See
Noel v. Artson, 641 F.3d 580, 586 (4th Cir. 2011) (only when
a requested instruction is “not substantially covered by
the court’s charge to the jury” does an appellate court
reverse).
ii.
Defendants’ next challenge to the jury instructions
arises from former BlueWave sales contractor Kyle
Martel’s invocation of the Fifth Amendment. The district
court instructed the jury that:
[I]f you find that [a] witness was a member of a
conspiracy to violate the False Claims Act, you
may but are not required to infer [from their]
refusal [to testify] that the witness’s answer
would have been unfavorable to the interests
of any co-conspirator.
At trial, the Government questioned Martel for 25 minutes,
and he invoked the Fifth Amendment in response to nearly
every question. The Government presented Martel with
a number of exhibits, including emails he sent marketing
HDL’s tests as a profit source. Defendants contend that
the district court improperly instructed the jury that it
could infer guilt from his silence. 2

2. Defendants do not renew on appeal their trial challenge to
the admission of Martel’s invocation of his Fifth Amendment rights
as violative of the Federal Rules of Evidence.

17a
Appendix A
The Supreme Court has long recognized that there
exists a “prevailing rule that the Fifth Amendment does
not forbid adverse inferences against parties to civil
actions when they refuse to testify in response to probative
evidence offered against them.” Baxter v. Palmigiano,
425 U.S. 308, 318, 96 S. Ct. 1551, 47 L. Ed. 2d 810 (1976).
And a “non-party’s silence in a civil proceeding implicates
Fifth Amendment concerns to an even lesser degree” than
a party’s invocation of the privilege. LiButti v. United
States, 107 F.3d 110, 121 (2d Cir. 1997) (quoting RAD
Servs., Inc. v. Aetna Cas. & Sur. Co., 808 F.2d 271, 275 (3d
Cir. 1986)) (internal quotation marks omitted).
In determining whether a district court may permit
adverse inferences, we engage in a case-specific analysis.
See Cerro Gordo Charity v. Fireman’s Fund Am. Life Ins.
Co., 819 F.2d 1471, 1481 (8th Cir. 1987). Courts generally
follow the factors set forth by the Second Circuit in
LiButti: (1) the nature of the relevant relationships; (2)
the degree of control of the party over the non-party
witness; (3) the compatibility of interests of the party and
non-party witness in the outcome of the litigation; and (4)
the role of the non-party witness in the litigation. LiButti,
107 F.3d at 123-24.
As a BlueWave contractor, Martel played a substantial
role in Defendants’ scheme. See RAD Servs., 808 F.2d at
277 (permitting the jury to draw an adverse inference
when the record was “replete with circumstantial evidence
of” the witnesses’ “involvement with the alleged plan”).
The Government introduced evidence that BlueWave paid
Martel nearly $6 million in commissions in exchange for

18a
Appendix A
selling HDL’s tests. Evidence also showed that Martel
emphasized physicians’ ability to profit from P&H fees, a
key component of the Government’s case. And by requiring
that the jury first find that Martel was a co-conspirator,
the district court cabined its instruction, ensuring that
the jury would only consider Martel’s invocation of the
Fifth Amendment to the extent it was relevant to their
assessment of Defendants’ liability.
It is immaterial that Martel no longer worked for
BlueWave or HDL at the time of trial. Courts have often
permitted invocation of the Fifth Amendment by a former
employee of a company that is a party to the litigation.
See, e.g., Cerro Gordo Charity, 819 F.2d at 1481; RAD
Servs., 808 F.2d at 276; Brink’s Inc. v. City of New York,
717 F.2d 700, 710 (2d Cir. 1983). Accordingly, we see no
error in the jury instructions permitting the jury to make
adverse inferences based on Martel’s testimony.
iii.
Defendants raise two additional challenges to the jury
instructions. Both are meritless.
Defendants first contend that the district court erred
by failing to instruct the jury that it must find that a false
claim be “material.” Instead, the court instructed the jury
that if it found that a claim violated the Anti-Kickback
Statute, the second element of the False Claims Act — that
“[t]he claim was false or fraudulent” — was necessarily
satisfied. The instruction was proper. The Anti-Kickback
Statute expressly states that “a claim that includes items

19a
Appendix A
or services resulting from a violation of this section
constitutes a false or fraudulent claim for purposes of” the
False Claims Act. 42 U.S.C. § 1320a-7b(g). A violation of
the Anti-Kickback Statute thus automatically constitutes a
false claim under the False Claims Act. See United States
ex rel. Lutz v. United States, 853 F.3d 131, 135 (4th Cir.
2017) (“An [Anti-Kickback Statute] violation that results in
a federal health care payment is a per se false claim under
the [False Claims Act].”); see also Guilfoile v. Shields, 913
F.3d 178, 190-91 (1st Cir. 2019). 3
Defendants also argue that the district court erred
when it told the jury that the Government must prove
“that at least one purpose of the remuneration” was to
induce the referral of services, rather than the “primary
purpose of the remuneration.” This instruction, too, was
proper, as every circuit to address the issue has held. See,
e.g., United States v. Borrasi, 639 F.3d 774, 781-82 (7th
Cir. 2011); United States v. McClatchey, 217 F.3d 823, 835
(10th Cir. 2000); United States v. Davis, 132 F.3d 1092,
1094 (5th Cir. 1998); United States v. Kats, 871 F.2d 105,
108 (9th Cir. 1989); United States v. Greber, 760 F.2d 68,
71-72 (3d Cir. 1985).
3. Defendants appear to argue that the district court should
have also instructed the jury on the False Claims Act’s “false
statement” provision, which prohibits knowingly making or causing
to be made “a false record or statement material to a false or
fraudulent claim.” 31 U.S.C. § 3729(a)(1)(B). But the theory of liability
propounded by the Government — on which we base our holding —
implicates only the “presentment” provision of that statute, which
prohibits “knowingly present[ing], or caus[ing] to be presented, a
false or fraudulent claim for payment or approval.” Id. § 3729(a)(1)(A).
The district court properly instructed the jury on the elements of a
“presentment” claim, so Defendants’ argument is not relevant here.

20a
Appendix A
B.
In addition to their jury-instruction arguments,
Defendants contend that the district court abused its
discretion by excluding three defense experts: Daniel
Mulholland, a healthcare attorney; Jessica Schmor, a
nurse; and Curtis Udell, a purported expert on the fairmarket value of P&H fees.
Under Federal Rule of Evidence 702, the trial judge
“must ensure that any and all scientific testimony or
evidence admitted is not only relevant, but reliable.”
Daubert v. Merrell Dow Pharms., Inc., 509 U.S. 579, 589,
113 S. Ct. 2786, 125 L. Ed. 2d 469 (1993). In determining
whether an expert’s reasoning or methodology is
scientifically valid, a court considers a host of Daubert
factors, including whether the theory can be (and has been)
tested; whether the technique is subject to peer review;
the rate of error; the existence of standards controlling
the technique’s operation; and whether the technique has
garnered general acceptance. Id. at 593-94.
The district court excluded Mulholland’s testimony as
to whether Defendants “would have reason to know what
the legal obligations were.” The court explained that this
testimony presents a legal conclusion informing the jury
about how it should apply the law, which is prohibited. See
United States v. Barile, 286 F.3d 749, 760 (4th Cir. 2002).
The district court excluded Schmor’s testimony because
her opinion did not rest on sufficient facts or data. Schmor,
a nurse, sought to testify as to Medicare’s reimbursement
code calculations, but she lacked personal knowledge about

21a
Appendix A
Medicare’s precise methodology. Similarly, the district
court excluded Udell’s testimony because the Court found
his methodology for calculating the fair market value of
P&H fees unreliable. Udell based his calculation on the
amount physicians charge for various services. Because
physicians consistently inflate charges to ensure they
receive full reimbursement from Medicare, the court
concluded that Udell’s proposed figures did not represent
the actual value of the processing and handling services.
In excluding the testimony of these experts, the district
court did not abuse its discretion.4
IV.
Finally, Dent challenges the district court’s grant
of prejudgment writs of attachment. At issue are three
properties that Dent transferred to his wife and to two
corporations that she controlled.
Pursuant to the Federal Debt Collection Procedures
Act, the Government may obtain a prejudgment remedy
4. We summarily reject two additional, meritless contentions
from Defendants. First, they argue that the jury rendered a fatally
inconsistent verdict by imposing personal liability on Dent and
Johnson but not BlueWave. The jury rendered a general verdict in
this case, which in civil cases “must be accepted” notwithstanding
any possible inconsistencies. Hines v. IBG Int’l, Inc., 813 F.2d 1331,
1334 (4th Cir. 1987). Second, using cherry-picked data, Mallory
argues that the $16,601,591 damages award against her improperly
included certain false claims attributed to Singulex. Given the dearth
of support for her argument and our “general reluctance to inquire
into the workings of the jury,” United States v. Powell, 469 U.S. 57, 69,
105 S. Ct. 471, 83 L. Ed. 2d 461 (1984), this challenge cannot succeed.

22a
Appendix A
in connection with a “claim for a debt.” 28 U.S.C. § 3001.
Under Subchapter D of the Act, the Government must
first establish that a transfer is fraudulent. Id. § 3304.
Then, the Government can rely on “applicable principles
of equity” to void the transfer, use a remedy against “the
asset transferred or other property of the transferee,” or
seek “any other relief the circumstances may require.”
Id. § 3306(a).
The district court found that Dent’s property
transfers were fraudulent. A transfer is fraudulent if the
debtor makes the transfer “with actual intent to hinder,
delay, or defraud a creditor.” Id. § 3304(b)(1)(A). The
statute outlines certain factors courts should look to in
determining intent in this context, including whether the
transfer was to an insider, whether the debtor retained
control of the property after the transfer, whether the
debtor had been threatened with suit before the transfer,
whether the value of the consideration was roughly
equivalent to the value of the asset, and whether the debtor
was insolvent. Id. § 3304(b)(2).
Many of these factors are present here. The timing
of the transfers, as well as the nominal amount of
consideration, cuts in favor of the Government. Dent made
the transfers several months after he knew he was under
federal investigation. He received a subpoena from the
Department of Health and Human Services in January
2013. On May 1, 2013, he purchased a real property for
$1.6 million, and sold it to his wife for $5 that same day —
consideration far less than the value of the property. In
August 2013, he sold a parcel of land that he had purchased

23a
Appendix A
for $2.75 million to his wife, again for $5. In February 2014,
Dent sold six more properties to his wife for $5, and an
island to one of his wife’s corporate entities for $5.
Moreover, Dent transferred the properties to an
insider — either to his wife or to corporations controlled
by his wife. He retained possession and control of the
properties, acknowledging that one of the properties at
issue remains his “family home” and that his parents
reside in another. Dent’s actions meet the standard for a
fraudulent transfer. See id. § 3304(b)(2). Accordingly, the
district court did not err in granting the prejudgment
writ of attachment.
V.
For the foregoing reasons, the judgment of the district
court is in all respects
AFFIRMED.

24a
APPENDIX B — Appendix
OPINIONBOF THE UNITED
STATES DISTRICT COURT FOR THE DISTRICT
OF SOUTH CAROLINA, BEAUFORT DIVISION,
DATED MAY 23, 2018
IN THE UNITED STATES DISTRICT COURT
DISTRICT OF SOUTH CAROLINA
BEAUFORT DIVISION
Civil Action No. 9:14-cv-00230-RMG
(Consolidated with 9:11-cv-1593-RMG
and 9:15-cv-2458-RMG)
UNITED STATES OF AMERICA, et al.,
Plaintiffs,
ex rel. SCARLETT LUTZ, et al.,
Plaintiffs-Relators,
v.
BLUE WAVE HEALTHCARE
CONSULTANTS, INC., FLOYD CALHOUN DENT,
III, ROBERT BRADFORD JOHNSON, AND
LATONYA MALLORY,
Defendants.
This matter is before the Court on the United States’
Motion for Entry of Judgment under Rule 54(b) of the
Federal Rules of Civil Procedure asking this Court to (a)

25a
Appendix B
enter judgment for the United States on Counts I–III of its
Complaint in the amount of $111,872,273 against Defendants
Floyd Calhoun Dent, III, Robert Bradford Johnson, and
Latonya Mallory, and in the additional amount of $3,136,305
against Defendants Dent and Johnson.1 The motion is
granted in part subject to findings below regarding treble
damages, set-offs, and statutory penalties.
I.

Background

On January 31, 2018, a twelve-member jury returned
a unanimous verdict, finding that defendants violated the
False Claims Act (“FCA”), 31 U.S.C. §§ 3729-33. (Dkt.
No. 870.) The jury found Johnson, Dent, and Mallory
responsible for 35,074 false claims for services by Health
Diagnostics Laboratories (“HDL”), for which Medicare
and TRICARE paid $16,601,591. (Id. at 1-2.) The jury
also found Dent and Johnson responsible for 3,813 false
claims for services by Singulex, for which Medicare and
TRICARE paid $467,935. (Id. at 2-3.)
II. Discussion
A.

Sufficiency of the Evidence — Damages

Dent and Johnson argue that there was not sufficient
evidence in the record for the jury to find them liable for
any damages all:
1. This Order also addresses the parties’ arguments about
the sufficiency of the evidence with respect to damages. Several of
these issues were first raised in the parties’ briefings on Defendants’
motions for judgment as a matter of law and/or for a new trial. (Dkt.
Nos. 878, 880, 887, 891, 899.)

26a
Appendix B
In this case, there has never been a determination
that the United States (or anyone else for that
matter) sustained any actual harm because
of Defendants Dent’s or Johnson’s alleged
violations of the False Claims Act or AntiKickback Statute. To the contrary, the jury
only determined the total number and value of
claims as to which Defendants Dent and Johnson
violated those statutes. The government did not
show (and the jury did not determine) whether
the government (or patients on whose behalf
it was paying) received what it paid for with
regard to the identified claims . . . . The United
States has not shown that the laboratories did
not perform the work for which they were paid.
The United States has not shown that any of
the tests involved in the 38,887 claims were not
medically necessary.
(Dkt. No. 888 at 14.) The Court has already ruled
several times on Defendants’ theory, which is essentially
a re-packaged version of their argument that the
Government was not damaged if the tests that were
ordered were actually performed. Defendants ignore
the substantial evidence in the record that their actions
caused unnecessary tests to be ordered and reimbursed
by Medicare, discussed at length in this Court’s May 14,
2018 Order. (Dkt. No. 906 at 11-12.) Defendants’ argument
also ignores this Court’s prior order on materiality,
finding that whether a test is medically unnecessary
or violates the Anti-Kickback Statute (“AKS”) is, as a
matter of law, material to the Government’s decision to

27a
Appendix B
reimburse a claim. (Dkt. No. 795 at 35); see United States
ex rel. Drakeford v. Tuomey, 792 F.3d 364, 386-87 (4th
Cir. 2015) (“By reimbursing [defendant] for services that
it was legally prohibited from paying [under the Stark
Law], the government has suffered injury equivalent to
the full amount of the payments.”). It bears repeating
here that AKS violations are not technical violations of
unnecessarily strict regulatory requirements, like the
oft-discussed example of a Medicare requirement that
a contractor use only American-made staplers. Claims
that were induced by violations of the Anti-Kickback
Statute are serious, so serious that the Government often
punishes them criminally, as discussed at length in this
Court’s December 4, 2017 Order. (Dkt. No. 795 at 4-5.) The
Court will not further explain why patients, the Medicare
program, and, in turn, American taxpayers, are damaged
by the performance of (and reimbursement of claims for)
medically unnecessary testing.
Defendant Mallory argues that there was not
sufficient evidence in the record to support the jury’s
verdict finding her liable for 35,074 false claims valued at
$16,601,591. (Dkt. No. 878-1 at 1-7.) Mallory argues (1) that
the jury’s verdict cannot be accurate because it was based
on aggregate damages figures for HDL and Singulex, and
(2) that the jury incorrectly began measuring damages
from a date on which Johnson received a communication
from attorney Lauren DeMoss, a date Mallory argues is
not relevant to her liability because she did not receive
the communication. (Dkt. N. 878-1.)
Pursuant to Federal Rule of Civil Procedure 50(b),
a party is entitled to judgment as a matter of law

28a
Appendix B
notwithstanding a jury verdict if the Court “determines,
without weighing the evidence or considering the
credibility of the witnesses, that substantial evidence
does not support the jury’s findings.” Konkel v. Bob Evans
Farms, Inc., 165 F.3d 275, 279 (4th Cir. 1999); see also
Wilhelm v. Blue Bell, Inc., 773 F.2d 1429, 1433 (4th Cir.
1985) (judgment in favor of movant is appropriate where
there is not “substantial evidence in the record to support
the jury’s findings.”). The evidence must be viewed in the
light most favorable to the non-moving party, but a mere
“scintilla” of evidence is not enough; the plaintiff must
“adduce substantial evidence in support of [its] claim.”
Demaine v. Bank One, Akron, 904 F.2d 219, 220 (4th Cir.
1990).
While a jury “may not render a verdict based on
speculation or guesswork,” a jury is “allowed to act upon
probable and inferential, as well as direct and positive
proof” and “may make a just and reasonable estimate
of the damage based on relevant data.” Bigelow v. RKO
Radio Pictures, 327 U.S. 251, 264-66, 66 S. Ct. 574, 90 L.
Ed. 652 (1946); accord Bresler v. Wilmington Trust Co.,
855 F.3d 178, 201 (4th Cir. 2017) (“[E]stimates that lack
mathematical certainty are permissible so long as the
[factfinder] has a basis to make a responsible estimate
of damages.”). “A district court abuses its discretion by
upholding an award of damages only when the jury’s
verdict is against the weight of the evidence or based on
evidence which is false.” Gregg v. Ham, 678 F.3d 333, 343
(4th Cir. 2012). “A jury’s award of damages stands unless
it is grossly excessive or shocking to the conscience.” Fox
v. Gen. Motors Corp., 247 F.3d 169, 180 (4th Cir. 2001).

29a
Appendix B
Here, the jury had sufficient evidence to support
its verdict that Mallory was liable for 35,074 false
claims valued at $16,601,591. The Government’s forensic
accounting expert, Eric Hines, gave thorough testimony
about the following damages calculations: (1) quarterly
figures for the number and value of the claims HDL and
Singulex submitted during the relevant period that were
induced by kickbacks (Dkt. No. 836 at 166:1-170:12; 198:1015; Dkt. No. 859 at 2674:15-2675:4); (2) the number and
value of the claims submitted by HDL and Singulex on a
quarterly basis from 2010 and 2014 that were connected
to the process and handling (“P&H”) and commission
kickback schemes (Dkt. No. 836 at 193:13-197:13, 197:14198:9, 198:16-23; Dkt. No. 859 at 2675:5-2676:2); (3) the
percentage of false claims related to the P&H kickback
scheme broken down between HDL and Singulex (Dkt.
No. 859 at 2674:8-2677:7) and related to both the P&H
and commission kickback schemes (id.); (4) specific tests
on test panels offered by Singulex and HDL that were
not medically necessary (Dkt. No. 857 at 1957-1971); (5)
testimony that between 15 and 20 percent of all physician
orders of HDL tests were for the “standard panel” (Dkt.
No. 857 at 2049:2-20 and (6) several data points of the
observed decline in HDL and Singulex test orders from
physicians after the P&H fee practice ceased (Dkt. No. 836
at 178 (testimony from Eric Hines that test orders dropped
“approximately 40 percent”); Dkt. No. 837 at 402:12-15
(testimony from BlueWave sales representative Jeffrey
Cornwell that sales in Texas declined 15 to 20 percent
after the P&H practice was terminated); Dkt. No. 838 at
612:4-14 (testimony from sales representative Larry Paul
Mincey, Jr. that sales dropped by about 10 percent); Dkt.

30a
Appendix B
No. 855 at 1636 (testimony from Defendant Dent that sales
dropped by (at “the highest”) 11 percent)).
Mallory argues that the jury did not have sufficient
evidence to render an accurate verdict as to her liability
because the United States’ damages expert, Eric Hines,
provided aggregate figures for damages caused by HDL
and Singulex claims. (Dkt. No. 878-1 at 1-7.) Mallory takes
issue primarily with Mr. Hines’s testimony on the first
day of trial that he was not asked to apportion liability
directly to any Defendant. (Dkt. No. 836 at 223.) Mallory
argues in her briefs that this statement is proof that
Mr. Hines attributed Singulex false claims to her and
that the jury, in turn, miscalculated her liability. (Dkt.
No. 878-1 at 4.) This argument has no merit. Mr. Hines
testified explicitly on the first day of trial that he provided
schedules breaking down the false claims between HDL
and Singulex. (Dkt. No. 836 at 223.) On Day Ten of the
trial, Mr. Hines broke down the total number and value
of HDL claims and Singulex claims associated with the
process and handling payments and the commission
payments. (Dkt. No. 859 at 244-250.) He also provided an
overall ratio of HDL to Singulex claims (Id. at 250.) Mr.
Hines testified that those ratios were generally consistent
and would be accurate if applied to the quarterly figures
he gave for damages on the first day of the trial. (Id.) It
is undisputed that Mallory’s role rendered her liable for
false claims submitted by HDL but not Singulex. The jury
had sufficient information to find Mallory liable for the
HDL claims that Hines determined were made during
the relevant time period and in violation of the False
Claims Act. The jury’s verdict as to Mallory is therefore
not against the weight of the evidence.

31a
Appendix B
Mallory also argues that the jury’s verdict must be
incorrect as to her liability because the “jury’s calculation
is based on a triggering date of November 14, 2013” (Dkt.
No. 878-1 at 6), the same date that Defendant Johnson
received in an email from attorney DeMoss. Mallory
argues that the jury incorrectly used the same date to
determine when she became liable for false claims, even
though she did not receive or otherwise have knowledge
of this email. (See Dkt. No. 878-1 at 6-7.) Mallory’s
argument is rife with speculation about how the jury
ultimately determined the total number and value of
claims for which each Defendant was or was not liable.
She states that the jury “seemingly added one-half of
the fourth quarter of 2013 claims (or 9,498) to the claims
from the first and second quarters of 2014, to obtain the
total number of claims that were found in violation of the
FCA.” (Dkt. No. 878-1 at 3.) Mallory’s theory may well
be a correct assessment of the jury’s analysis, but this
Court will not engage in an in-depth inquiry into the
jury’s deliberations because doing so “would be replete
with dangerous consequences.” McDonald v. Pless, 238
U.S. 264, 266-67, 269, 35 S. Ct. 783, 59 L. Ed. 1300 (1915)
(affirming judgment despite allegation that jury “adopted
an arbitrary and unjust method” in arriving at “quotient
verdict”). For reasons stated in this Court’s May 14, 2017
Orders (Dkt. Nos. 907, 907), there is sufficient evidence
in the record to support the jury’s verdict finding Mallory
liable for certain claims submitted by HDL. Additionally,
there is sufficient evidence in the record (discussed just
above) to allow the jury to “make a just and reasonable
estimate of the damage,” Bigelow, 327 U.S. at 264, caused
by those claims. For these reasons, the jury’s award “was

32a
Appendix B
not reached against the clear weight of the evidence, and
would not result in a miscarriage of justice.” Bresler v.
Wilmington Trust Co., 855 F.3d 178, 201 (4th Cir. 2017).
III. Treble Damages
The Government has asked the Court to treble the
total value of the false claims for which the jury found
Defendants liable as required under Title 31, United
States Code, Section 3729(a)(1). See Fresenius Med. Care
Holdings, Inc. v. United States, Civ. A. No. 08-12118-DPW,
2013 U.S. Dist. LEXIS 66234, 2013 WL 1946216, at *6
(D. Mass. May 9, 2013) (“[T]he government need only
prove its single damages, after which multiple damages
are applied as a matter of course.”). In accordance with
the False Claims Act, the Court hereby trebles the single
damages as determined by the jury: Dent, Johnson, and
Mallory are jointly and severally liable for treble damages
of $49,804,773 for the false claims submitted by HDL.
Additionally, Dent and Johnson are jointly and severally
liable for treble damages of $1,403,805 for the false claims
submitted by Singulex. 2
2. Dent, Johnson, and Mallory are jointly and severally liable for
the treble damages and penalties for the HDL claims, and Dent and
Johnson are jointly and severally liable for the treble damages and
penalties for the Singulex claims. See Mortgages, Inc. v. U.S. Dist.
Ct. for the Dist. of Nev., 934 F.2d 209, 212 (9th Cir. 1991) (“Where
one or more persons have committed a fraud upon the government
in violation of the FCA, each is joint and severally liable for the
treble damages and statutory penalty.”); accord United States ex
rel. Abbott-Burdick v. Univ. Med. Assocs., No. 2:96-1676-12, 2002
U.S. Dist. LEXIS 26986, 2002 WL 34236885, at *4 (D.S.C. May 23,
2002) (collecting cases).

33a
Appendix B
IV. Set-Offs
“[W]hen a plaintiff receives a settlement from one
defendant, a nonsettling defendant is entitled to a credit
of the settlement amount against any judgment obtained
by the plaintiff against the nonsettling defendant as long
as both the settlement and judgment represent common
damages.” See Singer v. Olympia Brewing Co., 878 F.2d
596, 600 (2d Cir. 1989); Peterson v. Air Line Pilots Ass’n,
622 F. Supp. 232, 237 (M.D.N.C. 1985); accord Rutland v.
South Carolina Dep’t of Transp., 400 S.C. 209, 734 S.E.2d
142, 145 (2012) (“[I]t is almost universally held that there
can be only one satisfaction for an injury or wrong.”)
(quotation marks and citation omitted).
The parties do not dispute that all three Defendants
are entitled to a set-off for the amounts the United States
has received from its settlements with HDL and Singulex.
However, Defendants are only entitled to a set-off for those
amounts “previously received” by the United States that
are attributable to common damages. See United States
v. Bornstein, 423 U.S. 303, 316, 96 S. Ct. 523, 46 L. Ed.
2d 514 (1976); United States ex rel. Miller v. Bill Harbert
Int’l Constr., Inc., 501 F. Supp. 2d 51, 53 (D.D.C. 2007).
As of the parties’ briefings on these issues, the
United States had received $6,355,147.48 from HDL and
$972,984.41 from Singulex pursuant to their settlements
of FCA allegations. (Dkt. No. 887-2.) The United States
argues that because neither HDL nor Singulex was a
Defendant in this case, and because HDL and Singulex

34a
Appendix B
both settled allegations of broader misconduct 3 than the
United States alleged against Dent, Johnson, and Mallory,
only a portion of these settlements can be regarded as
“common” to the damages Dent, Johnson, and Mallory
are liable for here. While HDL settled with the United
States to resolve allegations concerning 289,818 allegedly
false claims, Mallory, Dent, and Johnson were found liable
for only 35,074 (12%). Likewise, while Singulex settled
with the United States to resolve allegations about 38,138
allegedly false claims, Dent and Johnson were found liable
here for only 3,813 (10%). The United States therefore
argues that Dent, Johnson, and Mallory are entitled to
apply 12% of HDL’s settlement payments as a set-off to
the verdict against them and that Dent and Johnson are
entitled to apply 10% of Singulex’s settlement payments
as a set-off to the verdict against them. The Court agrees
and finds that Dent, Johnson, and Mallory are entitled
to a set-off of 12% of the amount the United States has
already received from HDL (i.e., $762,617.70) for the HDL
claims. Dent and Johnson are entitled to a set-off of 10% of
the amount the United States has already received from
Singulex (i.e., $97,298.44) for the Singulex claims. This
set-off is applied to the already trebled damages discussed
above. See Bornstein, 423 U.S. at 316-17 (“in computing
the [multiple] damages authorized by the [FCA], the
3. FIDL settled allegations including offering and paying
kickbacks in “speaker programs; advisory boards; consulting
arrangements; goods and services; and gifts” and submitting claims
for payment for tests “that were not appropriately coded.” (Dkt. No.
588-1 ¶¶ (D)(1),(3).) Singulex settled allegations in connection with
offering and paying kickbacks in “speaker and other consulting fees.”
(Dkt. No. 588-2 ¶ (D)(1).)

35a
Appendix B
Government’s actual damages are to be [multiplied]
before any subtractions are made for compensatory
payments previously received by the Government from
any source.”); see also Bill Harbert, 501 F. Supp. 2d at 54
n.4 (approving this approach even under the new treble
damages provision).
Defendants argue that they are entitled to additional
set-offs. (Dkt. No. 880-1 at 50; 878-1 at 21.) For example,
they argue that because HDL’s trustee waived the attorneyclient privilege as to certain documents demanded by the
government in exchange for the Government’s release
of $53,500,000.02 in claims against the estate, they are
entitled to a damages set-off of that amount. Defendants’
assertion that the Government somehow received the value
of $53,500,000.02 when it released future claims against
the bankruptcy estate valued at that amount in exchange
for a limited privilege waiver is not compelling. In any
event, neither this agreement nor the pre-petition claim
cited by Defendants (Dkt. Nos. 880-9; 878-2) represents
payment received by the United States in connection with
common damages because the agreements did not settle
FCA claims.
Defendants also claim that they are entitled to a setoffs for any amounts the United States has received from
physician practices, but they cite no physician or physician
practice who settled FCA claims related to the receipt of
P&H fees from HDL or Singulex. Defendants have also
not identified any settlement reached between the United
States and HDL’s former owners that could form the basis
for an additional set-off.

36a
Appendix B
Defendants claim that they are entitled to an equitable
lien on future payments made by HDL that represent
common damages. See Mills v. GAF Corp., 20 F.3d 678,
682 (6th Cir. 1994) (holding that the non-settling defendant
is entitled to an equitable lien on any future payments to
the plaintiff from a settling defendant). The Sixth Circuit
stated in Mills, however, that “Carey Canada must pay
the full amount of the verdict and will receive a lien on
any future payments to the plaintiffs under the settlement
agreements.” Id. at 682. For this reason, the judgment
in this action is not presently reduced by any liens. As
already stated, the Government cannot recover twice
for common damages among HDL, Singulex, and these
Defendants.
V. Civil Statutory Penalties
FCA liability “triggers the imposition of civil
penalties.” United States v. Karron, 750 F. Supp. 2d
480, 493 (S.D.N.Y. 2011). Individuals found liable for
claims submitted between 2010 and 2014 are subject to
“civil penalties amounting to a minimum of $5,500 and
a maximum of $11,000.” United States ex rel. Bunk v.
Gosselin World Wide Moving, N.V., 741 F.3d 390, 401 n.10
(4th Cir. 2013); see also Cook Cnty., Ill. v. United States ex
rel. Chandler, 538 U.S. 119, 123 n.1, 123 S. Ct. 1239, 155 L.
Ed. 2d 247 (2003) (“The [FCA] penalty is currently $5,500
to $11,000.”) (citing Federal Civil Penalties Inflation
Adjustment Act of 1990, Pub. L. 101-410, § 5; 28 U.S.C.
§ 2461 note); 64 Fed. Reg. 47099, 47103-04 (1999).
The United States seeks to impose the minimum
FCA penalty ($5,000) for each of 11,285 HDL claims and

37a
Appendix B
315 Singulex claims for which the jury found Defendants
liable, resulting in total civil penalties of $62,067,500 for
the HDL claims and $1,732,500 for the Singulex claims.4
Imposing the requested civil penalties would result in the
following judgment:

Treble Damages Less Set-Off
Singulex Claims $1,403,805
($97,298.44)
(Dent and
Johnson)
HDL Claims
$49,804,773
($762,617.70)
(Dent, Johnson,
and Mallory)
Civil Penalties
Singulex Claims $1,732,500
(Dent and
Johnson)
HDL Claims
$62,067,500
(Dent, Johnson,
and Mallory)

Total
$3,039,006.56

$111,109,655.3

4. The United States could seek penalties for 38,887 false
claims for a total of between $213,878,500 and $427,757,000 but has
discretion under the FCA “to accept reduced penalties.” Bunk, 741
F.3d at 408; see also United States v. Mackby, 339 F.3d 1013, 1015
(9th Cir. 2003) (upholding penalties sought by United States on 111
of 1459 false claims).

38a
Appendix B
Defendants argue that imposition of these judgments
against them would violate the Excessive Fines Clause of
the Eighth Amendment and the Due Process Clause of the
Fifth Amendment. Many courts have rejected the notion
that the Eighth Amendment limits the potential recovery
in False Claims Act cases. See Hudson v. United States,
522 U.S. 93, 104, 118 S. Ct. 488, 139 L. Ed. 2d 450 (1997)
(“money penalties” have not “historically been viewed as
punishment”); United States v. Rogan, 517 F.3d 449, 453
(7th Cir. 2008) (“It is far from clear that the Excessive
Fines Clause applies to civil actions under the False
Claims Act.”); Karron, 750 F. Supp. 2d at 493 n.12 (“It
is well-settled that punitive damages do not constitute
‘fines’ for the purpose of an Eighth Amendment analysis”).
Even if the Excessive Fines Clause is applicable to civil
FCA judgments, the judgment here passes Constitutional
muster. Under the Eighth Amendment, “judgments about
the appropriate punishment for an offense belong in the
first instance to the legislature,” to which “substantial
deference” is accorded. United States v. Bajakajian, 524
U.S. 321, 336, 118 S. Ct. 2028, 141 L. Ed. 2d 314, (1998).
As the Fourth Circuit recently reiterated:
No proof is required to convince one that to
the Government a false claim, successful or
not, is always costly. Just as surely, against
this loss the Government may protect itself,
though the damage be not explicitly or nicely
ascertainable. The FCA seeks to reimburse the
Government for just such losses. For a single
false claim, the civil penalty would not seem
exorbitant. Furthermore, even when multiplied

39a
Appendix B
by a plurality of impostures, it still would not
appear unreasonable when balanced against
the expense of the constant Treasury vigil they
necessitate.
Bunk, 741 F.3d at 409 (quoting Toepleman v. United States,
263 F.2d 697, 699 (4th Cir. 1959) (brackets omitted)). For
reasons discussed in this Court’s order on materiality
(Dkt. No. 795 at 4-5) and earlier in this order, the jury
found Defendants liable for serious violations of the law.
In light of the seriousness of these alleged violations,
the fact that there is a “substantial difference” between
the civil penalties the jury verdict would support and
the damages the United States actually seeks “weighs
against a finding of gross disproportionality.” Mackby,
339 F.3d at 1018. The Fourth Circuit has determined that
the “instances in which the penalty prescribed under the
FCA is unconstitutionally excessive will be ‘infrequent’”
Tuomey, 792 F.3d at 387 (quoting Bunk, 741 F.3d at 408).
Defendants have also raised Fifth Amendment
objections to the Government’s requested judgment.
“[T]he Due Process Clause imposes limits on ‘grossly
excessive’ monetary penalties that go beyond what is
necessary to vindicate the government’s ‘legitimate
interests in punishment and deterrence.’” BMW of N.
Am., Inc. v. Gore, 517 U.S. 559, 562, 116 S. Ct. 1589, 134
L. Ed. 2d 809 (1996)). The Fourth Circuit has stated
that it has “no reason to believe” that the “approach to
punitive damages under the Fifth Amendment would
differ dramatically from analysis under the Excessive
Fines Clause.” Tuomey, 792 F.3d at 388.

40a
Appendix B
“The Supreme Court has instructed courts to consider
three guideposts when reviewing punitive damages
awards under the Due Process Clause: ‘(1) the degree
of reprehensibility of the defendant’s misconduct; (2) the
disparity between the actual or potential harm suffered
by the plaintiff and the punitive damages award; and (3)
the difference between the punitive damages awarded
by the jury and the civil penalties authorized or imposed
in comparable cases.’” Tuomey, 792 F.3d 364, 388 (4th
Cir. 2015) (quoting State Farm Mut. Auto. Ins. Co. v.
Campbell, 538 U.S. 408, 416, 123 S. Ct. 1513, 155 L. Ed.
2d 585, (2003)). 5
In Tuomey, the Fourth Circuit indicated that the
Stark Law “expresses Congress’s judgment of the
reprehensibility of the conduct at issue by deeming services
provided in violation of the law worthless.” Tuomey, 792
F.3d at 388. The same is true of Anti-Kickback Statute
violations. In addition, Defendants’ conduct “involved
repeated actions” and was not the result of a “mere
accident,” two factors that inform the reprehensibility
of Defendants’ conduct and support substantial punitive
damages. See State Farm, 538 U.S. at 419; Saunders v.
Branch Banking & Tr. Co. of Va., 526 F.3d 142, 153 (4th
Cir. 2008) (finding the presence of only a single State Farm
factor sufficient to “provide justification for a substantial
award of punitive damages”).
The ratio of punitive to compensatory damages in
this verdict is constitutionally sound. The Due Process
5. The jury did not have discretion to award punitive damages
in this case, so this factor is not dispositive here.

41a
Appendix B
clause “does not apply to compensatory damages because
compensatory damages are intended to directly redress
Plaintiff’s injury and that injury is factual determination
already made by the jury. Id. at 387. The Supreme
Court has noted that because “some amount of money
beyond actual damages is ‘necessary to compensate
the Government completely for the costs, delays, and
inconveniences occasioned by fraudulent claims’” there
is a compensatory aspect to treble damages. Tuomey,
792 F.3d at 388 (quoting Cook Cnty., 538 U.S. at 130. The
treble damages provision also allows the Government to
be compensated for the award it must pay to compensate
relators in qui tam actions, id., between 15 percent and 25
percent “of the proceeds of the action or settlement of the
claim.” 31 U.S.C. § 3730(d). The civil penalties imposed in
FCA cases are entirely punitive. See Mackby, 261 F.3d at
830. The Supreme Court indicated in State Farm that a
4-to-1 ratio of punitive to compensatory damages “might
be close to the line of constitutional impropriety.” State
Farm, 538 U.S. at 425.
This Court has applied the same analysis the
Fourth Circuit used in Tuomey and determined that the
compensatory damages in this case is comprised of a 15%
relators’ share of the total recovery and one-third of the
trebled damages (i.e., single damages). The remainder of
the damages (two-thirds of the treble damages and all of
the civil penalties) are punitive. See Tuomey, 792 F.3d at
389 (applying this calculation and determining that the
ratio of punitive to compensatory damage, was about 3.6to-1, was constitutional).

42a
Appendix B
For the Singulex claims, Dent and Johnson are
each liable for $938,380.75 in compensatory damages
comprised of single damages ($467,935) combined with the
relator’s share (15%) of the total recovery ($470,445.75).6
The remainder of the total recovery, $2,197,924.25, is
punitive damages. The ratio of punitive to compensatory
damages for the Singulex claims is 2.3-to-1. For the HDL
claims, Dent, Johnson, and Mallory are each liable for
$33,382,431.95 in compensatory damages comprised of
single damages ($16,601,591.) combined with the relators’
share (15%) of the total recovery ($16,780,840.95). The
remainder of the total recovery, $78,489,841.05, is
punitive. The ratio of punitive to compensatory damages
for the HDL claims is 2.35-to-1. The ratio of punitive to
compensatory damages for the HDL and Singulex claims
in this judgment is therefore well below the 4-to-1 ratio
that raises constitutional concerns under the Due Process
clause.
VI. COMMON LAW CLAIMS
The United States also asks the Court to sever the
remaining causes of action, including the common law
causes of action in Counts IV (payment by mistake of
fact) and V (unjust enrichment) of the United States’
Complaint. (Dkt. No. 75). The Government argues that
because there is a higher scienter requirement for AKS/
FCA claims than there is for the common law causes of
6. The set-offs discussed earlier in this order are not relevant
to whether the punitive damages in the judgment are constitutional.
For this reason, the Court has not incorporated any set-off into the
calculation of the total recovery.

43a
Appendix B
action, the jury’s finding that defendants were only liable
for a subset of the allegedly false claims has no binding or
preclusive effect on the litigation of the common law causes
of action. See 31 U.S.C. 3729(b)(1) (defining “knowingly”
for purposes of FCA). “[C]ommon law actions are available
to the government to supplement those remedies found in
federal statutes, as long as the statute does not expressly
abrogate those rights.” United States v. Moffitt, Zwerling
& Kemler, P.C., 83 F.3d 660, 667 (4th Cir. 1996). While
the Government may not recover twice for the same
claims, it may pursue “consistent remedies, even to final
adjudication.” See, e.g., Pennsylvania Nat’l Mut. Cas. Ins.
Co. v. Pine Bluff, 354 F.3d 945, 950-51 (8th Cir. 2004).
With this Order, the Court is entering Rule 54(b)
judgment on the Government’s FCA causes of action.
The common law causes of action are severed and held
in abeyance. If this judgment is affirmed on appeal, or
otherwise becomes final, then the common law causes of
action could be dismissed. See U.S. ex. rel. Drakeford v.
Tuomey, 976 F. Supp. 2d 776, 791-92, 794 (D.S.C. 2013)
(denying without prejudice Tuomey’s motion to require
election of remedies after the Government prevailed on
its FCA claims).
VII.

Waiver of Copayments and Deductibles

All Defendants have moved for judgment as a matter
of law on the Government’s FCA claims based on the
waiver of copayments and deductibles. The Government
has not objected to that judgment and indeed did not
present any evidence at trial from which the jury could

44a
Appendix B
assess damages that resulted from this practice (or even
find that the practice violated the FCA). For this reason,
Defendants are entitled to judgment as a matter of law
with respect to the Government’s claims based on the
waiver of co-payments and deductibles.
VIII. Conclusion
For the reasons set forth above, the Court hereby
enters judgment against Defendants Mallory, Dent
and Johnson for $111,109,655.30 for the HDL claims
and against Dent and Johnson for $3,039,006.56 for the
Singulex claims.
AND IT IS SO ORDERED.
/s/ Richard Mark Gergel
Richard Mark Gergel
United States District, Judge
May 23, 2018
Charleston, South Carolina

45a
AppendixOF
C REHEARING of
Appendix C — DENIAL
the UNITED STATES COURT OF APPEALS FOR
THE FOURTH CIRCUIT, FILED APRIL 21, 2021
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
April 21, 2021, Filed
No. 18-1811 (L)
(9:14-cv-00230-RMG)
(9:11-cv-01593-RMG)
(9:15-cv-02485-RMG)
UNITED STATES OF AMERICA, and the State
of North Carolina, California and
Illinois, ex rel, SCARLETT LUTZ, Relator;
CHRIS REIDEL; KAYLA WEBSTER, Relator;
DR. MICHAEL MAYES, Relator,
Plaintiffs-Appellees,
v.
LATONYA MALLORY,
Defendant-Appellant,
and
HEALTH DIAGNOSTIC LABORATORY INC.;
SINGULEX INC.; LABORATORY CORPORATION
OF AMERICA HOLDINGS; BLUEWAVE

46a
Appendix C
HEALTHCARE CONSULTANTS, INC.;
PHILIPPE J. GOIX, PhD; FLOYD CALHOUN
DENT, III; ROBERT BRADFORD JOHNSON;
BERKELEY HEARTLAB, INC.; QUEST
DIAGNOSTICS, INCORPORATED,
Defendants.
No. 18-1812
(9:14-cv-00230-RMG)
(9:11-cv-01593-RMG)
(9:15-cv-02485-RMG)
UNITED STATES OF AMERICA, and the
States of North Carolina, California
and Illinois, ex rel, SCARLETT LUTZ,
Relator; DR. MICHAEL MAYES, Relator;
CHRIS RIEDEL; KAYLA WEBSTER, Relator,
Plaintiffs-Appellees,
v.
CHRISTINA M. DENT; LAKELIN PINES, LLC;
TRINI “D” ISLAND, LLC,
Parties-in-Interest-Appellants,
and
LATONYA MALLORY; HEALTH DIAGNOSTIC
LABORATORY INC.; LABORATORY

47a
Appendix C
CORPORATION OF AMERICA HOLDINGS;
PHILIPPE J. GOIX, PhD; BERKELEY HEARTLAB,
INC.; QUEST DIAGNOSTICS, INCORPORATED;
SINGULEX INC.; BLUEWAVE HEALTHCARE
CONSULTANTS, INC.; FLOYD CALHOUN DENT,
III; ROBERT BRADFORD JOHNSON,
Defendants.
No. 18-1813
(9:14-cv-00230-RMG)
(9:11-cv-01593-RMG)
(9:15-cv-02485-RMG)
UNITED STATES OF AMERICA, and the
State of North Carolina, California
and Illinois, ex rel, SCARLETT LUTZ;
KAYLA WEBSTER; CHRIS RIEDEL;
DR. MICHAEL MAYES,
Plaintiffs-Appellees,
v.
ROBERT BRADFORD JOHNSON;
FLOYD CALHOUN DENT, III; BLUEWAVE
HEALTHCARE CONSULTANTS, INC.,
Defendants - Appellants,
AROC ENTERPRISES, LLC; BLUE EAGLE
FARMING, LLC; CAE PROPERTIES, LLC;

48a
Appendix C
WAR-HORSE PROPERTIES, LLLP; EAGLE RAY
INVESTMENTS, LLC; FORSE INVESTMENTS,
LLC; ROYAL BLUE MEDICAL INCORPORATED;
COBALT HEALTHCARE CONSULTANTS, INC.,
Parties-in-Interest-Appellants,
and
BERKELEY HEARTLAB, INC.;
LATONYA MALLORY,
Defendants.
ORDER
The court denies the petition for rehearing and
rehearing en banc. No judge requested a poll under Fed.
R. App. P. 35 on the petition for rehearing en banc.
Entered at the direction of the panel: Judge Motz,
Judge Wynn, and Judge Floyd.
For the Court
/s/ Patricia S. Connor, Clerk

